<html>
<title> - THE 9/11 COMMISSION AND RECOMMENDATIONS FOR THE FUTURE OF FEDERAL LAW ENFORCEMENT AND BORDER SECURITY</title>
<body><pre>[Senate Hearing 108-925]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-925
 
 THE 9/11 COMMISSION AND RECOMMENDATIONS FOR THE FUTURE OF FEDERAL LAW 
                    ENFORCEMENT AND BORDER SECURITY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 19, 2004

                               __________

                          Serial No. J-108-92

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

96-459 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

































                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director






























                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware, prepared statement...................................   143
Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia, 
  charts.........................................................   154
Cornyn, Hon. John, a U.S. Senator from the State of Texas, 
  prepared statement.............................................   175
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................   176
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
    prepared statement...........................................   187
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................   204
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     4
    prepared statement...........................................   208

                               WITNESSES

Baginski, Maureen A., Executive Assistant Director, Intelligence, 
  Federal Bureau of Investigation, Washington, D.C...............    14
Hamilton, Lee, Vice Chair, 9/11 Commission, Washington, D.C., and 
  Slade Gorton, Commissioner, 9/11 Commission, Washington, D.C...     7
Hutchinson, Asa, Under Secretary for Border and Transportation 
  Security, Department of Homeland Security, Washington, D.C.....    12

                         QUESTIONS AND ANSWERS

Responses of Maureen Baginski to questions submitted by Senators 
  Hatch, Leahy, and Feingold.....................................    49
Responses of Asa Hutchinson to questions submitted by Senators 
  Hatch, Schumer, Leahy, and Feingold............................    79
Questions for Commissioners Lee Hamilton & Slade Gorton submitted 
  by Senators Hatch, Leahy and Feingold. (Note: Responses to the 
  written questions were not available at the time of printing.).   113

                       SUBMISSIONS FOR THE RECORD

American Civil Liberties Union, Gregory T. Nojeim, Associate 
  Director and Chief Legislative Counsel, and Timothy H. Edgar 
  Legislative Counsel, Washington, D.C., statement...............   120
Baginski, Maureen A., Executive Assistant Director, Intelligence, 
  Federal Bureau of Investigation, Washington, D.C., statement...   146
Goodrich, Donald, Chairman of the Board, Families of September 
  11, statement..................................................   177
Hamilton, Lee, Vice Chair, 9/11 Commission, Washington, D.C., and 
  Slade Gorton, Commissioner, 9/11 Commission, Washington, D.C., 
  statement......................................................   179
Hutchinson, Asa, Under Secretary for Border and Transportation 
  Security, Department of Homeland Security, Washington, D.C., 
  statement......................................................   190


 THE 9/11 COMMISSION AND RECOMMENDATIONS FOR THE FUTURE OF FEDERAL LAW 
                    ENFORCEMENT AND BORDER SECURITY

                              ----------                              


                       THURSDAY, AUGUST 19, 2004

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senators Hatch, DeWine, Chambliss, Cornyn, Leahy, 
Kennedy, Kohl, Feingold, and Schumer.
    Chairman Hatch. We are ready to go here. I think we will 
have all our panelists come up to the table so that when we ask 
questions, we can ask everybody.
    Senator Leahy. But if we do that, Mr. Chairman, we are 
going to need more than--I think it would be almost--well, I 
think we would be rightly criticized if we then spent just the 
same few minutes each Senator Cornyn, myself or anybody else 
might have, and spread it across four instead of across two.
    Chairman Hatch. Well, let's see what we can do.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. Let me just begin here by adding my voice 
to those who have expressed their appreciation to the members 
of the 9/11 Commission and their staff for their hard work in 
putting together a thorough report that includes many 
thoughtful recommendations.
    I want to thank you, Senator Gorton, and you, 
Representative Hamilton. We know how hard you have worked to 
get this all done, and we have chatted with both of you 
extensively.
    We also owe a debt of gratitude to all of the witnesses who 
appeared before the Commission, especially the representatives 
of families of those who perished in the horrific and 
unjustified attacks of nearly 3 years ago.
    The first responsibility of government is to protect its 
citizens and we must never shy away from that duty. Today, the 
Judiciary Committee begins its discussion of the portions of 
the 9/11 Commission's report and recommendations that relate to 
areas under our jurisdiction, such as border security and the 
role of the FBI in the field of counterintelligence.
    Our colleagues on the Governmental Affairs Committee, led 
by Senators Collins and Lieberman, have asked for our 
Committee's perspective on matters within our expertise, and I 
want to thank them for that.
    In addition to those recommendations that are designed to 
help our law enforcement and homeland security agencies 
identify, thwart and apprehend terrorists, we on the Senate 
Judiciary Committee have a role in implementing and overseeing 
any recommendations aimed at protecting our civil liberties. I 
expect, for example, that today's hearing will help us gain a 
better understanding of the Commission's recommendation calling 
for the creation of a new civil liberties board.
    Similarly, we must take to heart the Commission's 
recommendation with respect to our obligation to provide humane 
treatment for those detained as suspected or captured 
terrorists. The abuse of prisoners such as occurred at Abu 
Ghraib is contemptible, as well as counter-productive to our 
efforts to stop Islamist terrorism at its countries of origin.
    Much attention has been focused on now-famous 
organizational chart on page 413 of the Commission report 
proposing the National Intelligence Director, the National 
Counterterrorism Center, and three dual-hatted deputies. As 
significant as the debate today over the structural issues is, 
it must not be allowed to crowd out an equally important policy 
discussion of those recommendations that urge America to stand 
up for and defend our core values and ideals with our foreign 
neighbors, and work to bring about long-term changes in the 
underlying economic and political conditions that foster 
Islamist terrorism in certain regions.
    We must not be under any illusion that we can reach 
accommodations with Islamist terrorist organizations like al 
Qaeda. The Commission found that these groups do not hold 
views, quote, ``with which Americans can bargain or 
negotiate...there is no common ground--not even respect for 
life--on which to begin a dialogue...[They] can only be 
destroyed or utterly isolated,'' unquote.
    The deadly attacks on 9/11 required our country to adopt 
new laws to protect the public. I find constructive the 
Commission's observation that, quote, ``a full and informed 
public debate on the PATRIOT Act would be healthy,'' unquote. 
In this regard, I would note that the Commission also found 
that ``some executive actions that have been criticized are 
unrelated to the PATRIOT Act. The provisions that facilitate 
the sharing of information among intelligence agencies and 
between law enforcement and intelligence appear, on balance, to 
be beneficial,'' unquote.
    The 9/11 Commission report documents the negative 
repercussions of the so-called wall that existed before 
enactment of the PATRIOT Act between intelligence and criminal 
investigators. Even if the Commission is accurate in its 
assessment that the July 1995 procedures establishing the wall 
by Attorney General Reno, quote, ``were almost immediately 
misunderstood and misapplied,'' unquote, there can be no doubt, 
as Chapter 8 of the report lays out in great detail, that 
creation of the wall between intelligence and criminal 
investigators impeded rigorous following of leads that may have 
prevented the 9/11 attacks.
    The Commission's report catalogs that on August 29, 2001, 
one frustrated FBI criminal investigator prophetically e-mailed 
across the wall to an FBI intelligence officer the following 
message after being denied the ability to access and use 
information about one key al Qaeda operative, quote, 
``...someday someone will die--and wall or not--the public will 
not understand why we were not more effective and throwing 
every resource we had at certain problems,'' unquote.
    Never were more truer words written, but our job is to 
learn from our past mistakes in order to protect the American 
public in the future. If we carefully review the lessons 
contained in the 9/11 Commission report and fairly evaluate its 
recommendations, we will be able to marshal our resources and 
carry out our counterterrorism programs more effectively and 
reduce the risk of terrorist attacks against Americans at home 
and abroad.
    For example, the Commission's report compellingly 
demonstrates the importance of border security and tracking 
international travelers. Under Secretary Hutchinson will help 
us understand the administration's views in this critical area.
    Also of great interest to the Judiciary Committee is the 
Commission's recommendation relating to the future of the FBI 
in the war against terrorism. The 9/11 Commission report found 
that the FBI and Director Mueller have cooperated with the 
Commission. Recently, the FBI issued its formal response to the 
Commission's recommendations and in each instance was either 
implementing those recommendations or reexamining its current 
policy in light of the recommendations.
    I would like to commend President Bush for his leadership 
in making certain that the key senior administration officials 
are giving the bipartisan 9/11 Commission report the respect 
and consideration that it merits and deserves.
    It appears to me that, by and large, all of the committees 
in the House and Senate are attempting to approach the report 
in a bipartisan manner, despite the fact that we are deep into 
the election cycle and despite the fact that some of the 
Commission's recommendations are somewhat complex and 
controversial, such as those pertaining to changes in 
Congressional oversight of terrorism programs.
    I hope that this spirit of bipartisanship continues this 
morning so that we can go about the serious business of 
adopting the set of policies and laws that best protects the 
American public from terrorism, while preserving our 
traditional rights and liberties as American citizens.
    So I want to express my gratitude to all four of you being 
here--you two members of the Commission who have served so well 
and have given so much time to committees up here on Capitol 
Hill and have, I think, written an excellent report, for the 
work that the FBI does and, of course, Homeland Security does, 
represented by Ms. Baginski and Asa Hutchinson. I just want to 
tell you how grateful we are to have all of you here.
    We will put your full statements in the record. I notice 
they are rather long. We would like you to summarize so that we 
have enough time for questions here today.
    [The prepared statement of Senator Hatch appears as a 
submission for the record.]
    So we will turn to Senator Leahy, and then we will turn to 
the witnesses.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Well, thank you, Mr. Chairman. I am glad you 
are having this hearing and I thank you for accommodating 
schedules so we could do it.
    I am glad to see all the witnesses, especially my old 
friends Lee Hamilton and Slade Gorton. I had a chance to talk 
with both of them, although for months I felt as though they 
had never left because I would see them everyday on television.
    I think that as the Commission's Chair and Vice Chair, 
Governor Kean and Congressman Hamilton offered extraordinary 
leadership, leadership in the highest traditions of our great 
country in guiding the investigation through difficult shoals 
and bringing the Commission not only to constructive, but 
unanimous findings and recommendations.
    I have also heard the high praise that you and the other 
commissioners have had for the Commission staff. I join you in 
that praise. The report you have produced is an exceptional 
product and deserves the Nation's attention and deserves the 
Congress' prompt consideration.
    Senator Gorton, I was so proud of many of the comments you 
made, but especially when you remarked that the commissioners 
checked their politics at the door. I think the quality of the 
Commission's report bears out what you had said.
    Working in this non-partisan fashion, the 9/11 Commission 
has given us a chance for a fresh start in tackling the issues 
the report has identified. We shouldn't squander that chance. 
We should use the Commission as our model. After all, the 
terrorists don't attack Democrats or Republicans or 
independents. When they strike, they attack all Americans. I 
know my friend, Asa Hutchinson, has said very similar things in 
the past, and he and Ms. Baginski know this very, very well.
    I also want to commend the tireless efforts of the families 
and survivors who fought so hard to ensure that this Commission 
was established. Like the commissioners, the victims groups put 
partisanship aside and they pushed for an open, deliberative 
and accountable investigation, moving us forward in a 
constructive manner to better protect this Nation. Many of the 
victims groups are here today. I want to thank them, I want to 
welcome them.
    I might ask, Mr. Chairman, for consent to submit for the 
record the written statement of Donald Goodrich, of Bennington, 
Vermont.
    Chairman Hatch. Without objection.
    Senator Leahy. He lost his son, Pete, on September 11th and 
he has come to work closely with me on victims issues. I want 
to express my deep appreciation to him.
    We can't overstate the importance of oversight. The 
Commission deserves our praise for fighting for full access to 
documents and official testimony, and for acknowledging in its 
final report the importance of open government. They stated 
that secrecy can harm oversight and note that democracy's best 
oversight mechanism is public disclosure.
    We are going to focus on two areas of great significance--
FBI reform and border security. Both are topics well-known to 
this a Committee and have been of particular concern to me. My 
home State of Vermont shares 90 miles of our international 
border with Canada and I know the challenges faced there.
    The attacks of 9/11 did not create the problems the 
Commission has identified; it simply brought them into sharp 
relief. As someone who comes from a law enforcement background, 
several of them are problems that have concerned me for some 
time, and I know they concern others on this Committee from 
both sides of the aisle. Addressing some of these deficiencies 
was my first priority when I was Chairman for a few months 
before September 11th.
    During our hearings that summer, it was already clear that 
the FBI over the years has lost its way on some of the 
fundamentals, the ABCs, starting with accountability; basic 
tools like computers, technology and translators; and culture 
issues, like the treatment of whistleblowers and a resistance 
to share information outside the Bureau.
    We began bipartisan hearings on reforming the FBI just 
weeks before September 11th, and the new FBI Director pledged 
to make the changes necessary.
    The Director has made significant progress on several 
fronts, but the Commission's report strikes several familiar 
chords, showing that there is much ground yet to cover before 
we can say that the FBI is as effective as Americans need the 
Bureau to be in preventing and combatting terrorism.
    We continued the hearings on FBI reform after September 
11th. We sharpened our focus on the relevance of these 
longstanding problems. Our inquiry constituted the most 
intensive FBI oversight in many years and generated wide-
ranging recommendations. The Commission report identified many 
of the same failures within the FBI that we had highlighted in 
those hearings. It recognizes, as do I, that Director Mueller 
has already taken certain steps to solve structural problems 
and that he is striving to change the culture within the 
Bureau. These are important steps, but it also points out that 
we have to institutionalize these changes or they will die on 
the vine, as they have in the past, when you have lapses in 
leadership or oversight.
    There are two particular areas that gravely concern me--
and, Ms. Baginski, I will be going into this later--the FBI's 
foreign language translation program and its information 
technology system. These are the nuts and bolts of effective 
law enforcement and counterintelligence, but we know in the 
months leading up to September 11, 2001, they were in sorry 
shape. Three years later, and millions and millions of dollars 
later, we want to know what progress has been made.
    Ms. Baginski has said recently she was optimistic about the 
status of the FBI's foreign translation program. I hope you 
have some good news for us today because last spring, despite 
claims of near real-time translation of wiretaps, the FBI could 
not state with any certainty how much time passes between the 
time a telephone call is taped and when it is translated. There 
is still a vast backlog, for example, of material needing to be 
translated. The FBI sought an unprecedented number of new FISA 
wiretaps last year. I have to ask, how does this impact their 
resources?
    The FBI longstanding problems of mastering the computer 
technology that is essential to modern-day law enforcement has 
been another great failing. The Trilogy solution that the FBI 
said would be the answer to the computer problems has been a 
disaster. By now, two phases of Trilogy have been completed. 
All agents at least have their own computers and can send e-
mails to one another, something my 12-year-old neighbor was 
able to do years ago. It is hardly a noteworthy accomplishment 
in the Information Age, especially $500 to $600 million later. 
My neighbor did it for a couple of hundred dollars.
    What troubles me, however, is the FBI agents are still 
trying to connect the dots using pencil and paper. That is fine 
for kindergarten, but it is not fine for our FBI. The long 
anticipated virtual case file system which would put 
intelligence at the fingertips of the agents in the field is 
far behind schedule. It is vastly over budget. It should have 
been operational long ago, but the dates keep getting extended. 
In May, the Director assured us that it would be deployed by 
the end of the year. A month later, in June, we were told there 
would be further delays. At this rate, by the time it is 
finally implemented, it will be outdated. We should be working 
with state-of-the-art technology.
    There are other critical areas that need reform within the 
FBI. Some we learned from the 9/11 Commission, some we learned 
from our own oversight efforts and reports by the DOJ Inspector 
General, but some have come to light only because of 
whistleblowers.
    Senator Grassley and I spent a great deal of time listening 
to reports from whistleblowers because we believed they may 
provide us with information critical to our National security. 
As a result of Enron and related corporate scandals, I worked 
with Senator Grassley and others in Congress to give broad 
protection to whistleblowers in the private sector.
    But so far, Congress has not acted to protect those who 
come forward from the FBI. The FBI Reform Act that Senator 
Grassley and I introduced in July of 2003 is drawn from the FBI 
Reform Act that had been unanimously approved by this Committee 
a year before. It has died on the Senate floor because of 
anonymous holds on the Republican side. It does address several 
outstanding problems in the Bureau, and acting on those reforms 
is long overdue.
    Finally, I want to raise the question of State grants for 
homeland security funding. The 9/11 Commission recommended that 
homeland security assistance should be based strictly on an 
assessment of risks and security questions. I believe the real 
problem we face is a failure on the part of both the Congress 
and the administration to make enough of an overall commitment 
of resources to first responders.
    Instead of making first responders the priority they should 
be, some have preferred to pit State against State for the 
inadequate Federal resources that are available. Rather than 
turning large States against small States, the needs of both 
should be recognized.
    The Commission has rendered to history its careful 
reconstruction. The Commission has given to us the task of 
carefully considering its recommendations drawn from those 
events, recommendations that in several ways would help the FBI 
get back to mastering its ABCs. We owe our fellow citizens and 
the families of those whose lives were lost or forever changed 
by those attacks our full and respectful consideration of these 
findings and recommendations. But let me say one more time, 
every single American owes an enormous debt of gratitude to 
Congressman Hamilton, to Senator Gorton and all the other 
Commission members.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Thank you, Mr. Chairman.
    Chairman Hatch. Thank you, Senator.
    We will start with Congressman Hamilton, and then Senator 
Gorton. We would like you to summarize, if you can. We will put 
all full statements into the record, and then hopefully we will 
have enough time for some questions.
    So, Lee, we are happy to have you here. We welcome all four 
of you here. We are grateful for the service you have given and 
we look forward to hearing your testimony.

    STATEMENT OF LEE HAMILTON, VICE CHAIR, 9/11 COMMISSION, 
    WASHINGTON, D.C., AND SLADE GORTON, COMMISSIONER, 9/11 
                  COMMISSION, WASHINGTON, D.C.

    Mr. Hamilton. Thank you very much, Chairman Hatch, Ranking 
Member Leahy and the other distinguished Senators of this 
Committee. We are very pleased to be before you today. I want 
to just mention that Chairman Kean, who deserves enormous 
credit for his leadership in this Commission, is not able to be 
with us today. But I am delighted to have joining me Senator 
Gorton, who made innumerable contributions to this report and 
served with extraordinary distinction. We are aware, of course, 
that August is not usually a month when you meet, and we are 
very grateful to you for your willingness to be here to hear 
our testimony.
    What we will do is kind of alternate in summarizing our 
paragraphs, as the Chairman has indicated. You have asked us to 
discuss three topics--our findings and recommendations with 
regard to the FBI; secondly, border security; and, third, the 
PATRIOT Act. We will discuss each of these in turn.
    Senator?
    Mr. Gorton. The FBI has for several decades performed two 
important but related functions. First, it serves as our 
premier Federal law enforcement agency investigating possible 
violations of Federal criminal statutes and working with 
Federal prosecutors to develop and bring cases against 
violators of those laws.
    Second, it is an important member of the intelligence 
community, collecting information on foreign intelligence or 
terrorist activities within the United States. That information 
can be used either for additional counterintelligence or 
counterterrorism investigation or to bring criminal 
prosecutions.
    We focused on the FBI's performance as an intelligence 
agency combatting the al Qaeda threat within the United States 
before 9/11. And like the Joint Inquiry of the Senate and House 
Intelligence Committees before us, we found that performance 
seriously deficient.
    Finally, when FBI agents did develop important information 
about possible terrorist-related activities, that information 
often did not get effectively communicated either within the 
FBI itself or in the intelligence community as a whole.
    Within the FBI itself, communication of important 
information was hampered by the traditional case-oriented 
approach of the agency and the possessive case file mentality 
of FBI agents. As this Committee is only too familiar with the 
information technology problems that have hampered the FBI's 
ability to know what it knows for years, even when information 
was communicated from the field to headquarters, it didn't 
always come to the attention of the Director or other top 
officials who should have seen it.
    This was the case in the now-famous incidents in the summer 
of 2001 of the Phoenix electronic communication about Middle 
Eastern immigrants in flight schools and the Minneapolis field 
office's report to headquarters about the arrest of Zacarias 
Moussaoui.
    The other internal barrier to communication of intelligence 
information between the FBI intelligence officials and the FBI 
criminal agents and the Federal prosecutors was the wall 
between intelligence and law enforcement that developed in the 
1980s and reinforced in the 1990s.
    Through a combination of court decisions, pronouncements 
from the Department of Justice and its Office of Intelligence 
Policy and Review, and risk-averse interpretations of those 
pronouncements by the FBI, the flow of information between the 
intelligence and criminal sides of the FBI and the Justice 
Department was significantly choked off--a phenomenon that 
continued until after 9/11, when the Congress enacted the 
PATRIOT Act and when the Justice Department successfully 
appealed a FISA court decision that effectively reinstated the 
wall.
    These failures in internal communications were exacerbated 
by a reluctance of the FBI to share information with its sister 
agencies in the intelligence community. The FBI, under the 
leadership of its current Director, Robert Mueller, has 
undertaken significant reforms to try to deal with these 
deficiencies and build a strong capability in intelligence and 
counterterrorism.
    Because of the history of serious deficiencies and because 
of lingering doubts about whether the FBI can overcome its 
deep-seated law enforcement culture, the Commission gave 
serious consideration to proposals to move the FBI's 
intelligence operation to a new agency devoted exclusively to 
intelligence collection inside the United States, a variant of 
the British security service popularly known as MI-5.
    We decided not to make such a recommendation for several 
reasons set forth in our report. Chief among them were the 
disadvantages of separating domestic intelligence from law 
enforcement and losing the collection resources of FBI field 
offices around the country, supplemented by their relationships 
with State and local law enforcement agencies.
    Another major reason was civil liberties concerns that 
would arise from creating outside of the Justice Department an 
agency whose focus is on collecting information from and about 
American citizens, residents and visitors. We also believe that 
while the jury is still out on the ultimate success of the 
reforms initiated by Director Mueller, the process he has 
started is promising, and many of the benefits that might be 
realized by creating a new agency will be achieved, we are 
convinced, if our important recommendations on restructuring 
the intelligence community, creation of a national 
counterterrorism center and a national intelligence director 
with real authority to coordinate and direct the activities of 
our intelligence agencies are implemented.
    An FBI that is an integral part of the NCTC and is 
responsive to the leadership of the national intelligence 
director will work even more effectively with the CIA and other 
intelligence agencies, while retaining the law enforcement 
tools that continue to be an essential weapon in combatting 
terrorism.
    What the Commission recommends, therefore, is that further 
steps be taken by the President, the Justice Department and the 
FBI itself to build on the reforms that have been undertaken 
already and to institutionalize those reforms so that the FBI 
is permanently transformed into an effective intelligence and 
counterterrorism agency. The goal, as our report states, is to 
create within the FBI a specialized and integrated national 
security workforce of agents, analysts, linguists and 
surveillance specialists who create a new FBI culture of 
expertise in national security and intelligence.
    Mr. Hamilton. On Border Patrol, I think our principal 
finding was a simple one, and that was that border security was 
not seen as a national security matter. We looked at it as a 
narcotics problem, illegal immigration, smuggling of weapons of 
mass destruction. But we simply did not exhibit a comparable 
level of concern about terrorists' ability to enter and stay in 
the United States.
    Al Qaeda was very skillful in exploiting the gaps in our 
visa entry systems. They even set up their own passport office. 
They developed very good contacts with travel facilitators and 
were very effective in getting into the country.
    The Commission found that many of the 19 hijackers were 
potentially vulnerable to detection by border authorities, for 
all kinds of reasons. Some made false statements on their visa 
applications, some lied, some violated the rules of 
immigration. One failed to enroll in school; two over-stayed 
their time. But neither the intelligence community nor the 
border security agencies nor the FBI had programs in place to 
analyze and act upon that intelligence on their travel tactics.
    Since 9/11, we know that important steps have been taken to 
strengthen our border security. We spell them out in our 
statement. I will not go into those. The efforts have certainly 
made us safer, but not safe enough. As a Nation, we have not 
yet fully absorbed the lessons of 9/11 with respect to border 
security.
    The terrorists are travelers; they are jet-setters in many 
ways. They have to leave safe havens, they have to travel 
clandestinely, they have to use evasive techniques, they have 
to alter travel documents. All of these things give us an 
opportunity to zero in on the terrorists. So we have 
recommended a broad strategy that combines terrorist travel 
intelligence, operations, law enforcement, in a strategy to 
intercept terrorists, find their travel facilitators and 
constrain their mobility.
    Mr. Gorton. Front-line border agencies must not only obtain 
from the intelligence community on a real-time basis 
information on terrorists. They must also assist in collecting 
it. Consular officers and immigration inspectors, after all, 
are the people who encounter travelers and their documents. 
Specialists must be developed and deployed in consulates and at 
the border to detect terrorists through their travel practices, 
including their documents.
    Technology has a vital role to play. Three years after 9/
11, it has been more than enough time for border officials to 
integrate into their operations terrorist travel indicators 
that have been developed by the intelligence community. The 
intelligence community and the border security community have 
not been close partners in the past. This must change.
    We also need an operational program to target terrorist 
travel facilitators, forgers, human smugglers, travel agencies 
and corrupt border officials. Some may be found here, but most 
will be found abroad. Disrupting them would seriously constrain 
terrorists' mobility. While there have been some successes in 
this area, intelligence far outstrips action. This problem 
illustrates the need for a national counterterrorism center.
    Investigations of travel facilitators invariably raise 
complicated questions. Should a particular travel facilitator 
be arrested or should he be the subject of continued 
intelligence operations? In which country should he be 
arrested? A central planning authority is needed to bring the 
numerous agencies to the table and to decide on the best course 
of action.
    Mr. Hamilton. With regard to screening systems, we think 
the Government simply must accelerate its efforts to build a 
comprehensive biometric entry and exit screening system. The 
Congress has had an interest in that, but as a practical matter 
there hasn't been any funding until the end of 2002.
    The new Department of Homeland Security, we believe, is 
emerging from its difficult start-up period, and we believe it 
is poised to move forward to implement Congress's mandate in 
this area. We stress four principles.
    One is that the Department has to lead with a comprehensive 
screening system. We will have more to say about that, I am 
sure, in the Q and A period. It addresses the common problems, 
setting common standards with system-wide goals in mind.
    Secondly, a biometric entry and exit screening system is 
just fundamental to intercepting terrorists, and its 
development should be accelerated. Each element of that system 
is very important. It must enable the border officials to 
access all relevant information about a traveler in order to 
assess the risk they may pose. We must know who is coming into 
this country. We must know people are who they say they are.
    The third principle is that United States citizens should 
not be exempt from carrying biometric passports or other 
identities to be securely verified. And there should be a 
uniform program to speed known travelers so inspectors can 
focus their efforts on the ones that might pose greater risks.
    Mr. Gorton. We need to dedicate a much greater effort to 
collaboration with foreign governments with respect to border 
security. This means more exchange of information about 
terrorists and passports, and improved global passport design 
standards. Implicit in this recommendation is continued close 
cooperation with Mexico and Canada. One particularly important 
effort is to improve screening efforts prior to departure from 
foreign airports, especially in countries participating in the 
visa waiver program.
    Mr. Hamilton. Our law enforcement system has to send a 
message of welcome, tolerance and justice to members of the 
immigrant communities in the United States, fostering also a 
respect for the rule of law. Good immigration services are one 
way to reach out that is valuable, including for intelligence.
    State and local law enforcement agencies need more 
training; they need to partner with Federal agencies so that 
they can cooperate more effectively in identifying terrorist 
suspects. We also need secure identification, and that should 
begin in the United States. We believe that the Federal 
Government should set standards for the issuance of birth 
certificates and sources of identification such as drivers' 
licenses. The bottom line is that our visa and border control 
systems must become an integral part of our counterterrorism 
intelligence system.
    Mr. Gorton. The USA PATRIOT Act, passed in the wake of the 
9/11 attacks, was substantially the product of this Committee. 
While a number of provisions of the Act were relatively non-
controversial, updating existing authorities to take account of 
the digital age in which we now live, others are more far-
reaching, granting to the FBI, the Department of Justice and 
other executive branch agencies important new authorities to 
use in combatting terrorism.
    For this reason, the Congress chose to sunset many of the 
provisions of the Act at the end of next year. We know that 
this Committee and the House Committee on the Judiciary will be 
holding hearings to determine whether to extend these expiring 
provisions and whether to make additional changes in the law.
    This Commission did not canvass the entire range of issues 
raised by the USA PATRIOT Act in detail. We have limited our 
specific recommendations with respect to the Act to those 
provisions that bear most directly on our mandate; i.e. those 
that relate to information-sharing in the intelligence and law 
enforcement communities. We believe that those provisions 
breaking down the wall that prevented the FBI from sharing 
intelligence information guaranteed under FISA with Federal 
prosecutors and allowing the Justice Department to share grand 
jury information with other intelligence and law enforcement 
agencies should be extended or made permanent. They are 
important in their own right and they have helped spur the 
increased sharing of information throughout the intelligence 
community that is vital to a successful counterterrorism 
program.
    We made a general recommendation that applies not only to 
consideration of other provisions of the PATRIOT Act, but also 
to other legislative or regulatory proposals that may impinge 
on individual rights or liberties, including personal privacy. 
The burden in all cases should be on those proposing the 
restriction to show that the gains that will flow in terms of 
national security are real and substantial and that individual 
rights and liberties will be adequately protected. We recommend 
the establishment of appropriate guidelines for such programs. 
We also recommend the establishment in the executive branch of 
an oversight office or board to be a watchdog to assure maximum 
protection of individual rights and liberties in those 
programs.
    Let us conclude with what we said in our report. We must 
find ways of reconciling security with liberty, since the 
success of one helps protect the other. The choice between 
security and liberty is a false choice and nothing is more 
likely to endanger American liberties than the success of 
terrorist attacks at home. Our history has shown us that 
insecurity threatens liberty. Yet, if our liberties are 
curtailed, we lose the values that we are struggling to defend.
    We are now pleased to answer your questions.
    [The prepared statement of Messrs. Hamilton and Gorton 
appears as a submission for the record.]
    Chairman Hatch. Thank you very much.
    We want to thank you, Secretary Hutchinson, for being here. 
You have testified, I believe, 12 times so far before 
committees up on Capitol Hill here in this last short time, and 
we are grateful that you have been willing to come and testify 
here as well.
    Senator Leahy. Asa spends more time here now than when he 
was in the House.
    Chairman Hatch. I don't think you have to take that kind of 
stuff.
    [Laughter.]

  STATEMENT OF ASA HUTCHINSON, UNDER SECRETARY FOR BORDER AND 
   TRANSPORTATION SECURITY, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Hutchinson. Well, thank you, Chairman Hatch, Senator 
Leahy, members of the Committee. I would love to have an 
honorary seat somewhere here if I continue to testify, but it 
is always a privilege to be before this Committee.
    As we approach the anniversary of the September 11 attacks, 
it is important to recognize that significant progress has been 
made. But we also understand there is a great need to do more, 
and I am grateful for the testimony of Congressman Hamilton and 
Senator Gorton, who have done such a terrific job with the 9/11 
Commission. The recommendations in their testimony today will 
help us to drive forward many of the initiatives that the 
Department of Homeland Security has been engaged in.
    I wanted to cover a couple of points that are covered in 
the Commission report and talk about some of the things we have 
done in this regard.
    In its report, the Commission noted that vigorous efforts 
to track terrorist financing must remain front and center in 
U.S. counterterrorism efforts. We certainly agree with this. 
Well over a year ago, the Department has worked in close 
cooperation with the FBI and others to track terrorist 
financing and to dismantle the sources of terrorist funding.
    The Department's Immigration and Customs Enforcement, or 
ICE agents share all terrorist financing leads with the FBI 
under a memorandum of agreement with the Department of Justice. 
We have established a joint vetting unit to clear all 
investigations with any potential nexus to terrorist financing. 
We have also assigned 321 ICE agents to the FBI's joint 
terrorism task forces, which is a very effective means of 
clearing information and enhancing cooperation.
    ICE initiated the Cornerstone program, which focuses on the 
systems of financing that criminals, terrorists and alien 
smugglers use to earn, store and move their proceeds. To date, 
Cornerstone has recovered $348 million in illegal currency and 
made 1,800 arrests.
    Another recommendation of the Commission was in reference 
to terrorist travel that was testified to previously, that we 
should combine terrorist travel intelligence, operations and 
law enforcement in a strategy to intercept terrorists and their 
facilitators as they go about their business. The Department 
has moved forward with this aggressively. There is more to be 
done.
    Through the National Targeting Center, which is operated by 
Customs and Border Protection, we use a variety of information 
to identify potentially high-risk travelers and shipments that 
should have more scrutiny. We have the Automated Targeting 
System that allows us through the NTC to analyze raw 
intelligence and travel data and commercial data to pinpoint 
anomalies to help us to be able to flag those that might pose a 
risk. That is the foundation, of course, for the Container 
Security Initiative, which is the cargo side of our 
inspections. So that is the capacity to look at terrorist 
travel.
    Secondly, we have our US-VISIT program that provides an 
important continuum of security that has improved our ability 
to target individuals, and hopefully to have the traveler files 
in place that the Commission has referred to. US-VISIT for the 
first time allows us to biometrically confirm the identity of 
foreign visitors as they enter our ports of entry. It has 
allowed us to freeze the identity of travelers, to positively 
match that identity with the individual's travel document and 
to determine over-stays.
    We recognize the Commission's recommendation that this 
program be accelerated, and this Congress has given us some 
very strict deadlines. We have met the deadlines that have 
previously been provided to us. This year, we are looking at 
the 50 busiest land ports as our deadline. We intend to make 
the very aggressive deadlines Congress has given, but if there 
are ways to accelerate this and expand it, we certainly are 
open to those possibilities.
    In the first 7 months of operation, US-VISIT processed 
nearly 7 million foreign national applicants for admission at 
our air and sea ports of entry. During that time, 674 
individuals have been identified through biometrics alone as 
being the subject of a lookout. Of the 674 hits, 64 percent 
were for criminal violations and 36 percent were for 
immigration violations alone. We continue to develop the exit 
capacity in reference to that program, now relying upon 
biographic information for exit procedures.
    Through US-VISIT, we caught a woman who had used a 
fraudulent visa to enter the United States over 60 times 
without being detected by standard biographic record checks. We 
also stopped a convicted rapist previously deported from the 
United States who had used nine different aliases and four 
dates of birth. US-VISIT enhances our ability to track criminal 
and terrorist travel. It also contains unprecedented privacy 
protections that are very important.
    Those are the international travel components for the 
terrorists that may try to enter the U.S. We also, through 
TSA's no-fly and selectee lists, look at domestic travel. We 
have to enhance the capabilities in that arena that we are 
working on.
    We also are concerned about our vast land borders that many 
of the Senators on this panel have raised issues concerning. 
The Commission's report refers to having the capacity to 
monitor and respond to intrusions across our border. That is 
the basis of the Arizona Border Control Initiative, in which we 
have utilized unmanned aerial vehicles, new technologies and 
new personnel assigned to that difficult border region.
    The 9/11 Commission report recommends that the U.S. border 
security system should be integrated into a larger network of 
screening points. Integration, of course, is the main focus of 
the US-VISIT program that has brought together and made the 
databases speak to each other from the State Department, to our 
criminal databases, to our port of entry databases. We continue 
to expand that integration.
    Our first responsibility is to make sure that the systems 
we are working on operate effectively, from US-VISIT, to our 
pilot program on transportation worker identification 
credentials, to our registered traveler program. But we also 
recognize the need to review all of these programs and 
coordinate them together because they all look at a whole range 
of biometrics and we want to be able to coordinate those. The 
Department is accelerating that effort as well.
    Finally, on the USA PATRIOT Act, I would second the point 
that this has been a very helpful tool obviously to the FBI, 
but also to all who work in law enforcement. From a Department 
of Homeland Security standpoint, it has given us a greater 
capability to go after the bulk cash transfers of money that 
was previously a reporting violation, but now is a criminal 
offense. It also enhances the sharing of information between 
those in the intelligence community and the law enforcement 
side, breaking that wall down, that is helpful to our efforts 
as well. We are very focused on these initiatives. The 
Commission report will help us to push these forward even to a 
greater extent.
    I want to thank the Committee for their leadership on these 
very important issues.
    [The prepared statement of Mr. Hutchinson appears as a 
submission for the record.]
    Chairman Hatch. Well, thank you, Secretary Hutchinson.
    Ms. Baginski is the Executive Assistant Director of 
Intelligence for the Federal Bureau of Investigation. We are so 
grateful to have you here today, so we will take your testimony 
at this time.

STATEMENT OF MAUREEN A. BAGINSKI, EXECUTIVE ASSISTANT DIRECTOR, 
INTELLIGENCE, FEDERAL BUREAU OF INVESTIGATION, WASHINGTON, D.C.

    Ms. Baginski. Thank you, Mr. Chairman and distinguished 
members of the Committee, for the opportunity to appear before 
you to discuss the recommendations of the 9/11 Commission. The 
FBI applauds and is very grateful for the work of the 
Commission. We are also grateful to the families for reminding 
us for whom and why we serve always.
    We are pleased that the Commission has embraced the general 
direction of our reform, and we agree wholeheartedly that much 
work remains to be done to institutionalize that reform. We are 
committed to doing everything that we have to do to do that.
    Intelligence, which we define as vital information about 
those who would do us harm, is a powerful tool in defense of 
the Nation. In using that tool comes great responsibility: 
first, the responsibility for producing and sharing that 
information, and the responsibility for its accuracy; second, 
the responsibility for ensuring the protection of the rights of 
U.S. citizens as it is produced and collected; and, third, the 
responsibility for using the Nation's resources responsibly as 
you develop capabilities to do the intelligence mission.
    If intelligence is vital information about those who would 
do us harm, then the only true value of intelligence is in the 
eyes of the users of intelligence. The only true measure of the 
value of intelligence is whether or not it helps someone make a 
better decision. So in the eyes of the producer is not how we 
measure the value of intelligence.
    When we think about the range of decisiomakers that are 
necessary to defend our Nation, you could think about them as 
ranging from the President to the patrolman. And those of us 
with the responsibility of producing and sharing information 
must make sure that they are networked together with 
information that allows them to act in defense of the country. 
In the end, that is what intelligence really is.
    This is not the responsibility, as you say and know, of the 
Federal family alone. We are part of many networks. We are part 
of a Federal network. We are part of an intelligence community. 
We are part of the law enforcement community. We are part of 
800,000 State, local and tribal police officers who together, 
everyday, protect the Nation on the front lines. They will be 
the first to encounter the threat and they will be the first to 
defend against that threat.
    So everything that we have done in the FBI for intelligence 
has been about getting our own internal act together so that we 
can be the best node possible on this network, the network 
itself is only going to be as effective as its individual 
members coming together in that network.
    My responsibility at the FBI has been to take charge of 
creating an enterprise-wide intelligence capability under the 
leadership of Director Mueller. Intelligence reform, I think as 
the findings of the Commission have proven, at the FBI has been 
a very evolutionary process, starting first immediately in the 
aftermath of 9/11 very focused on counterterrorism, very 
focused on getting the information out and producing strategic 
analysis, and then finally culminating in the Director's 
decision to create an Executive Assistant Director for 
Intelligence. And I was very, very proud to take such a 
position last year, May of 2003. As I said, all of our efforts 
have been about getting our own internal act together, and we 
still do have work to do.
    In the interest of time, I only want to share with you the 
core principles on which we have built that, and the first 
thought is a very important one and that is that intelligence 
is the job of the entire FBI, not just the job of my 
organization. If we are to do it correctly, then our training, 
our security, all of the components that make up the FBI must 
be as optimized for its intelligence mission as it is for its 
law enforcement mission.
    After that core principle come four. The first is the 
integration of intelligence and law enforcement operations. 
Intelligence is best when it is informed by an operational 
view. I think I bring my bias to that largely from my 
experience in the Department of Defense, where intelligence was 
always very integrated with military operations.
    Secondly, at the same time that you want production 
integrated, you do want an independent requirement and 
collection management process. By that, I simply mean an 
independent authority setting priorities, looking at what you 
are doing against those priorities, consistently identifying 
gaps and developing the strategies to develop sources to fill 
those gaps. That is the responsibility of my organization.
    Third, centralized management and distributed execution. 
The power of the FBI intelligence capability is in its 56 field 
offices and 400 resident agencies. It is in those numbers that 
are out there. So, it is getting them to have a shared view of 
the threat; a single set of operating processes, policies and 
procedures; the resources to do that work; the IT to connect 
them; the humans to do the analysis; and allowing that power to 
perform.
    Fourth, focused strategic analysis. If we spend all of our 
time doing current reporting, we will be working the urgent, 
and my job is to make sure we are also working the important.
    In the interest of time, I don't want to go over the 
accomplishments, although we are very proud of all of them. I 
would just focus on a couple to get to your opening statements 
because I think they are, in fact, very important and we share 
many of your concerns.
    In terms of information-sharing, we have tripled the amount 
of raw intelligence reporting that we have done already this 
year over last year, and we have doubled the number of 
assessments that we have provided.
    Senator Leahy. Provided to whom?
    Ms. Baginski. That we have provided to the larger 
intelligence community, and also to the Congress and to State 
and local law enforcement.
    Also on the cultural side, you are right; there is much 
work to do on culture. And that is not a light switch; that 
takes time to work through. There are two critical things that 
the Director has championed, and the first is changing the 
performance evaluations of the agents to include a critical 
element that grades them against source development and 
intelligence production; and, finally, the proposal for an 
intelligence officer certification that requires intelligence 
officer certification for all of our agents before they could 
become ASACs or section chiefs, the first SES level at 
headquarters.
    I could detail more achievements and more accomplishments. 
We think we are on a good path. We think the Commission is also 
right; we have much work to do. With that, we look forward to 
your questions.
    [The prepared statement of Ms. Baginski appears as a 
submission for the record.]
    Chairman Hatch. Well, thank you so much. We appreciate all 
four of you and your statements and we are encouraged by those 
statements.
    Let me ask a question to both Commissioners in this first 
round here. Although the Commission's rejection of the MI-5 
model was conditioned upon adoption of the panel's other 
recommendations, such as the creation of the counterterrorism 
center and the national intelligence director, Congressman 
Hamilton, you have personally voiced strong objections to the 
MI-5 model, regardless of the enactment of these other 
measures. I would like to know what is that.
    Senator Gorton, I am interested to hear your views, as 
well, on that.
    Mr. Hamilton. Senator Hatch, we looked at MI-5 because of 
the record the FBI had in the lead-up to 9/11 was not 
impressive. We were intrigued by it. We flirted with it a 
little bit, but we soundly rejected it in the end. We rejected 
it, I think, for several reasons.
    One was the concern for civil liberties. We think the FBI 
does have a tradition of rule of law, protection of civil 
liberties. We were afraid setting up another independent 
domestic intelligence without that tradition would not be 
helpful.
    Secondly, we think the FBI is moving in the right direction 
now to correct the deficiencies, and to set up an MI-5 would be 
terribly disruptive, would take a long time, would be very 
costly--you would have to set up separate training facilities 
and bring new agents in and all the rest of it--and would not 
be helpful at this point in time. So the MI-5 was rejected.
    Interestingly enough, when we talked with the Brits about 
this, they didn't even think an MI-5 was a good idea for the 
United States because the two countries are so very, very 
different. So we rejected that completely and emphasized 
instead the importance of focusing on institutionalizing the 
reforms that are underway.
    Mr. Gorton. I would simply emphasize what Lee has said. I 
think one of our most fascinating and delightful interviews was 
with the head of MI-5. She said, among other things, there, her 
relationships are with exactly 56 chief constables in the 
United Kingdom, all of whom she knows personally. Here in the 
United States, of course, we have 10, 15,000 different police 
agencies, many of which have developed good relationships with 
the FBI agencies in their given areas. There are just too many 
differences between the United States and the United Kingdom.
    And you shouldn't underestimate, of course, the dislocation 
of creating an entirely new agency, the potential of one 
further stovepipe, one further agency not to communicate with 
others. But I think the primary reasons were positive, were the 
significant progress that we believe that the FBI has made 
under Bob Mueller in correcting many of the failures that led 
up to 9/11.
    Mr. Hamilton. We see an important advantage in the FBI's 
ability to link law enforcement and intelligence. They are not 
separate. You cannot separate them completely. What the 
investigator finds out here with regard to intelligence can be 
helpful to the criminal prosecutor. What the criminal 
prosecutor finds out in his investigation can be helpful on the 
intelligence side. That link, that synergy is important.
    Chairman Hatch. Let me just ask one other question.
    Vice Chairman Hamilton, in prior testimony on this subject 
you have suggested that new legislation on information-sharing 
and the reforms at the FBI may not be necessary, if I interpret 
it correctly, so long as the current Director takes steps to 
institutionalize his reforms or the President issues 
appropriate executive orders.
    Could you elaborate on those observations on the merits of 
entrusting some of these recommendations to the executive 
branch?
    Mr. Hamilton. Well, what we found, I think, as we looked at 
the problem of sharing information--and that really was 
critical for us. We think 9/11 came about, in part, because we 
did not do as good a job as we should have in sharing 
information. Whereas many of our intelligence agencies are very 
good at what they do, they nonetheless have a kind of a 
restricted view of the world and we think the sharing was 
critically important.
    Now, the whole question of integrating information systems, 
the reform of them, the improvement of them, cannot be done by 
a single agency or even a single department. What you need is 
integration, and that can only be done across the Government, 
and when you are seeking action across the Government, you have 
to have the President do it. I don't know any other way to get 
it done.
    So we call upon the President here to lead a major effort 
in the Government to develop common standards, common 
practices, common approaches to the information system. I don't 
think we considered that a legislative matter. We think it 
really has to be done by the President, and the benefits of it 
are just enormous if you can get that free flow of information 
flowing across these stovepipes that we have.
    Mr. Gorton. Bob Mueller had one tremendous accidental 
advantage. He became the head of the FBI one week before 9/11. 
He had no intellectual or emotional investment in the way 
business had been done prior to 9/11 and that gave him a very 
great ability to make dramatic changes.
    We had two concerns, however--the very strong culture of 
the FBI itself which creates internal resistance to major 
change, and the fact that no individual is going to head it 
forever, and we have no idea who his successor may be. So we 
want these very positive changes to be institutionalized.
    I think a major reason that we said that this could be done 
by executive order is to freeze a particular structure in the 
law makes it extremely difficult to change. Whether every 
element of an original change through executive order is a 
hundred percent correct is certainly a matter which one can 
question, and there is a somewhat easier facility to make 
adjustments if the reforms are done by executive order. We do 
think they need to be institutionalized and can't just be left 
up to the Bureau itself, but we don't think it absolutely 
necessary that they be put into statute.
    Chairman Hatch. Thank you, Senator. My time is up.
    Senator Leahy.
    Senator Leahy. Well, thank you, and thank you again to the 
four witnesses. To follow up on what Senator Gorton said. The 
institutionalizing of some of these reforms is very necessary. 
We sometimes rely too much on ad hominem reform, which simply 
allows those within the bureaucracy who don't want a reform to 
hunker down and just wait for the person who feels that way to 
leave, because ultimately people in these positions come and 
go.
    Congressman Hamilton, again, please tell Governor Kean also 
of our great respect for what he has done.
    Under Secretary Hutchinson, we talk about how we get 
information back and forth, and if I might be allowed just a 
little bit of parochial bragging, you and I visited the Law 
Enforcement Support Center, the LESC, in Williston, Vermont, 
the Nation's primary database and search engine for criminal 
aliens.
    As you know, whether it is two o'clock on a Sunday morning 
in the middle of a three-foot--and that is not an 
exaggeration--snowfall or in the middle of a sunny summer 
afternoon, they are operating. They answer 750,000 queries a 
year from law enforcement in 50 States. They answer them within 
15 minutes or sooner.
    Would you say this is something that we could look at as a 
model for talking about how you do real-time sharing.
    Mr. Hutchinson. I think the Law Enforcement Support Center 
in Vermont is an unheralded example of some of the things that 
are being done right in sharing information with our State and 
local officers. The fact that the men and women there at the 
facility in Vermont are loading into the immigration file of 
the NCIC, National Crime Information System, allows all of that 
information on immigration violators to be available to local 
law enforcement.
    As a result of that effort, we have increased the detainers 
that have been lodged, the number of absconder files that are 
entered into the system, and we have actually decreased the 
number of alien absconders that are in this country. So we 
certainly applaud that effort and we expect great results in 
the future on it.
    Senator Leahy. Congressman Hamilton and Senator Gorton, I 
am reading from your final recommendations with respect to the 
FBI. You say that the Congress should make sure funding is 
available to accelerate the expansion of secure facilities in 
FBI field offices so as to increase their ability to use secure 
e-mail systems in classified intelligence product exchanges.
    We have already given the FBI hundreds of millions of 
dollars to upgrade its information technology systems to bring 
the FBI into the 21st century. I have spoken before about how 
prior to 9/11 they were deciding how they could put agents on 
airplanes to bring photographs of suspected hijackers to 
different parts of the country, something any grade school kid 
could have e-mailed to someone else.
    We spent hundreds of millions of dollars on Trilogy. It is 
way over budget. It is nowhere near completion. Some think it 
never will be. I wonder if money is the only thing because you 
also recommend that the Congress should monitor whether the 
FBI's information-sharing principles are implemented in 
practice.
    But, for the Congress to do this, they have got to get 
answers from the Department of Justice and we don't get them, 
whether it is Republican Senators or Democratic Senators 
asking. I can give you a list of things that have been asked 
for years. They just don't bother to answer or send non-
answers.
    If it sounds like I am frustrated, I am, because we have 
shown a willingness to authorize the money--and I am also on 
the Appropriations Committee--and the willingness to 
appropriate the money for all of this, yet we have no way of 
finding out what goes wrong after we appropriate it.
    How do we get this information? What is your 
recommendation?
    Mr. Gorton. I think if there were an easy answer to that 
question, Senator Leahy, you would have long since come up with 
it. Obviously, it is not only with the FBI and the Department 
of Justice that hundreds of millions of dollars have been 
appropriated to bring them into the information age, but many 
other departments as well.
    Going beyond our recommendation, perhaps some of the 
concerns are with the elaborate nature of the acquisition 
process in the Federal Government. The information age 
revolution goes so fast that by the time we go through our 
normal procurement processes, we are in the next generation. 
That may be one thing to look at.
    We didn't attempt to become experts in procurement policies 
or the like. We saw a lack of an ability within an agency to 
share information and have recommended changes. You also may 
note in another part of our report we talk about Congressional 
oversight and show deep concern with the fact that Asa here 
must spend a huge amount of his time--you have said how many 
times he has come to this Committee.
    Senator Leahy. We were referring to all committees.
    Mr. Gorton. Yes, 88 committees and subcommittees that the 
Department of Homeland Security must report to. I suspect that 
Congressional oversight would probably be sharper if it were 
somewhat more limited.
    Senator Leahy. In this Committee, somebody once said, I 
think, Dracula fears holy water less than the Attorney General 
fears coming to this Committee. We don't see him, and we like 
him. I mean, we are all friends with him and we all served with 
him, but getting answers is very, very difficult.
    I will give you one example. Three years ago, in the 
PATRIOT Act, we had a requirement, not a request, but a 
requirement that the Attorney General prepare a comprehensive 
report on the FBI's translation program. We have never gotten 
it, even though that is vital to our understanding of virtually 
every piece of intelligence information from the Middle East.
    I know this particular section very well; I wrote it. The 
PATRIOT Act required it because ensuring the FBI's translation 
program is working to its potential is important to national 
security. There is an awful lot of data out there that is not 
translated. We have a huge ability with FISA, without going 
into the nature of some of our intelligence-gathering 
abilities, to get all this information, but then it sits there 
untranslated. We can't even get something that is required by 
law from the Attorney General that has been required for 3 
years to tell us what is happening.
    What do we do about that?
    Mr. Gorton. Ultimately, you have the purse strings. That is 
the ultimate control.
    Senator Leahy. Thank you. My time is up. I will come back 
later.
    Chairman Hatch. Thank you, Senator.
    We will turn to Senator Cornyn, who was here first.
    Senator Cornyn. Thank you, Mr. Chairman. Thanks to the 
panel for being here. I have two questions, as time permits. 
One has to do with continuity of Government and the other has 
to do with border security, and I would like to direct my first 
question to Congressman Hamilton and Senator Gorton.
    It has been almost 3 years since Flight 93 was diverted and 
crashed in a place other than which it was originally intended 
to crash, and that is possibly the United States Capitol or at 
the White House, potentially decapitating the United States 
Government. Since that time, a bipartisan Commission and a 
joint venture of the Brookings Institution and the American 
Enterprise Institute have come up with some very good, in my 
opinion, recommendations for the Congress to undertake with 
regard to presidential transition and Congressional continuity. 
But so far, we have had perhaps even less success than the 
Government has had generally in improving our situation since 
9/11 in this area.
    I would ask perhaps, Congressman Hamilton, for you to first 
address that, and then Senator Gorton. How urgent do you 
believe it is for Congress to deal with the matter of 
governmental continuity, where the alternative if we don't do 
anything--and there is a successful decapitation, debilitation 
of the Congress--the alternative is essentially martial law?
    Mr. Hamilton. Senator, we did not address your specific 
proposal with regard to a constitutional amendment, nor did we 
delve greatly into the question of continuity of Government. We 
had a statutory mandate. We interpreted that mandate fairly 
carefully or strictly, and we did not think that it was clear 
that we should get into the continuity of Government question. 
We know it is a major concern here in the Congress, as it 
should be. So we cannot speak as a Commission with regard to 
your particular proposal.
    We do think that you are putting your finger on a very, 
very important problem, however, and in the report we address 
the question of transition. We think that the country is most 
vulnerable, or very vulnerable perhaps I should say, during a 
period of transition of Government. And we make some 
recommendations with respect to requiring a President-elect to 
submit nominees in the national security area, and for the 
Senate to act to accept or reject those nominations within a 
30-day period, because we are concerned about that transition 
period.
    Now, your proposal has a lot of similarities with that. It 
is broader than ours. You speak about all the Cabinet members, 
as I recall, in your proposal, not just the national security 
proposals. So we are very receptive to proposals on continuity 
of Government, but we did not endorse any particular approach 
to them. We do appreciate your initiative.
    Mr. Gorton. We were not able to determine with absolute 
certainty the target at which Flight 93 was aimed, but I think 
all of us believe that it was much more likely than not that it 
was the Capitol. The basis of your concern is well taken.
    As Lee has said, we deal with maybe the first cousin of 
your proposal in dealing with transition. We were particularly 
struck by the attack on the Cole which took place in late 
October of the year 2000. Within a couple of weeks, there was a 
preliminary determination of responsibility. A final 
determination literally took years, but in that transition time 
neither administration felt certain enough or concerned enough 
to deal with it and it went entirely unanswered.
    That was the reason, or a major reason that we went into 
the transition to try to get national security officers into 
place as quickly as possible. You have taken a step beyond that 
and gone beyond anything we thought about in suggesting that 
the sitting President make the nominations for his successor. I 
think that is an absolutely intriguing idea, as are your ideas 
with respect to the continuity of Government.
    We looked at our charge and we simply didn't get into it. 
But is it a vitally important issue and one that we think 
should be given serious consideration by the Congress? The 
answer to that is a total affirmative.
    Senator Cornyn. Thank you for your answers. I do understand 
it was not perhaps within the scope of your Commission, but I 
do appreciate your responses. I wish I could claim originality, 
but there are a lot of very smart and very dedicated people who 
have made some recommendations which I have tried to bring 
forward together with others in Congress to address those.
    Secretary Hutchinson, I want to tell you what an 
outstanding job I think you and the Secretary have done in 
trying to address the border security concerns we have. But I 
can tell you, as you know and as we have discussed, as a Texan, 
with a 1,200-mile border with Mexico and a southern border of 
Mexico leading down to Central America, one of the most porous 
in the country, we still have a long way to go. And I know you 
recognize that.
    I would like to ask you specifically about how do we 
conserve our resources, or I should say direct our resources in 
a way that goes after those who would come across our borders 
with malicious intent from those who want to come across our 
borders with benign, perhaps even beneficial intentions.
    I speak specifically of whether you think a temporary 
worker program, something that would deal not necessarily with 
people who are just wanting to come, but even people who are 
already here and working in our economy--the last estimate I 
heard is about 6 million in that workforce--do you think a 
worker program and immigration reform need to be coupled with 
our efforts at border security?
    Mr. Hutchinson. Thank you, Senator Cornyn, particularly for 
your leadership and push on a number of border security issues.
    In reference to the borders, first of all, I think it is 
important that we understand the difference between those that 
come into our country to harm us versus those that come in for 
an intent to get a job, support a family. The entry is still 
illegal. We have a responsibility to enforce the law in all 
respects, but we still have to recognize a distinction there.
    Secondly, as you indicated, the pull, the magnet that 
brings in those that are coming in for job purposes or other 
purposes into this country really diverts our resources, 
consumes our resources, as compared to focusing on those that 
are coming in to harm us. So the temporary worker enhances 
security, gives a legal path, and it really mirrors what we did 
last week with two announcements, which was to reward those 
that are seeking a legal means to come to this country and to 
deter and discourage those that are trying to come in 
illegally. So I think the temporary worker program does that. 
It discourages illegal flow, and thereby it enhances security.
    Mr. Hamilton. Senator, may I just add--I know you didn't 
direct the question to us, but it raises a point that is very 
important to the Commission and that is the tie between border 
security and immigration. I think what we are trying to say in 
our report is that that is an enormously important tie. You 
cannot put those two things in separate boxes and deal with 
immigration over here and border security over here.
    We believe you have got to have a biometric entry/exit 
system that is comprehensive. People come into this country all 
sorts of ways, not just across the border in Texas. They come 
across there in great numbers, but many, many ways they get 
into this country, and we have got to have a system that is 
comprehensive enough to deal with all of these people coming 
in.
    Almost all of them come in with very benign purposes. We 
want them to come in, but we have got to be able to sort them 
out. We think officials have to have access to files on the 
visitors and the immigrants that are coming into this country 
so that they can make a judgment and make it quickly, as they 
often have to do.
    We think you have to have an exchange of information on 
these people with other countries because most of them come 
from other countries, I guess by definition. Real-time 
verification of passports--we cannot do that today, but we have 
to try to do it and work toward that. And we see, of course, a 
growing role for partnership with State and local officials 
because the Federal Government simply is not going to be able 
to do it all. Part of all of this is secure identification of 
U.S. citizens, as well.
    So we see this as an enormously important part of the 
national security of the United States. These people got into 
this country all sorts of ways. They cooperated with corrupt 
officials. They used fraud. They lied. They worked with human 
traffickers to get into the country. We have got to be able to 
identify these people. We have got to get the information on 
it, and once we get the information on it, we have got to put 
it into a center where it can be accessible to everybody.
    And beyond intelligence, somebody has to be in charge to 
take charge of the case, to manage the case, which was not done 
on 9/11. Nobody was in charge, nobody managed it. When we 
learned about these fellows out in San Diego, we had bits and 
pieces of information about them and nobody put it all 
together.
    George Tenet was asked by us--when he learned in August of 
2000 about Moussaoui in Minneapolis and we asked him what did 
he do about it. He said, well, I put some of my CIA people to 
work with the FBI. And we pushed him a little harder on it and 
he said this was the FBI's case.
    Now, I don't think his answer was wrong, but it just 
illustrates what happened prior to 9/11. Nobody took charge of 
the case, nobody managed the case, and that is what we are 
trying to correct with our proposal on the national 
counterterrorism center. You have got to have somebody not only 
that collects the information, but once the information is 
collected, somebody has to manage it and say I am taking charge 
of this.
    Chairman Hatch. Thank you.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, and I thank our 
panelists for remarkable public service. We can tell from 
listening to Lee Hamilton how strongly he feels about this 
undertaking, and I know it is a feeling that is shared by all 
of you.
    Right here is a book of hearings and it is hearings that I 
held in 1971 about what has happened to other presidential 
commissions, and the fact was nothing, nothing; they are all 
gathering dust. These were the Scranton Commission on Campus 
Unrest, Katzenbach on Crime, Eisenhower on the Causes of 
Violence, Hesburgh on Civil Rights, many others on health and 
the list goes on. That isn't what is going to happen to this, 
but it is an important historical fact about what the history 
has been. That is why I think there is a sense of urgency about 
taking action at this time.
    Let me go to a very important part of the recommendations 
that were mentioned by your joint statement, and also Asa 
Hutchinson, in the jurisdiction of this Committee and that is 
the sections on privacy and civil liberties. You make the very 
important point that the new focus on collecting and sharing 
more and more information about people raises these serious 
concerns.
    You say that no one in Government is now responsible for 
making sure that everything that is done in the name of 
fighting terrorism is done consistently with the historic and 
essential commitment to personal privacy and liberty. You 
recommend that an office be established to handle this issue 
government-wide. Both of you have generous comments about it in 
your testimony.
    I would like to just sort of ask rhetorical questions and 
you will get the thrust of it. I am interested about how 
serious the Commission was in making these recommendations and 
whether all of you will put the full weight of credibility 
behind it and make it clear that this office, to be effective, 
needs adequate resources and access and clout if it is going to 
be able to be effective in doing what you have outlined would 
be so important to be done.
    In the 9/11 Commission report, it talks about the 
possibility of setting up a panel similar to the Foreign 
Intelligence Advisory Board. I am interested in, one, the kind 
of commitment that all of you feel we should have on this, how 
important it is, and then whether this ought to be an internal 
or external board. Should it be just left to the particular 
agency or should it be a panel that is established within the 
Government, or should it be established inside the Government 
and one that would be outside but working like the Foreign 
Intelligence Advisory Board?
    Mr. Hamilton. Well, Senator, we are very serious about it. 
Look, in order to get at the terrorists, you put into place a 
lot of things that are intrusive on the lives of Americans. We 
encounter it everyday. We have become more tolerant of those 
intrusions because of our fear, because of our concern about 
the terrorists.
    But everywhere you turn, including in our report, you keep 
stacking up restrictions on Americans and you expand the powers 
of Government in the FBI, in the DHS and a lot of other places. 
Now, that has to be a concern to everybody and we didn't know 
exactly how to deal with that, but one of the things that 
struck us was that there was not in the Government any single 
place across departments, across agencies that looked at the 
questions of privacy and civil liberties.
    I heard--I have it in mind; I know it is highly classified. 
I can't talk about it, except to say it is an astounding 
intrusion into the lives of ordinary Americans that is routine 
today in Government. Now, a lot of this stuff is highly 
classified, and so I am very committed to the idea of a board. 
And you asked what resources, what power should it have. It 
ought to have adequate resources. It ought to have a very tough 
investigative staff and it ought to be a very active board and 
agency, and it has to be able to cut across all departments. I 
don't know how you set that up, except you set it up through 
the President and the White House.
    Mr. Gorton. Senator Kennedy, I remember very distinctly 
that this subject came up in the initial organizing meeting of 
the 9/11 Commission, and it flowed through from the first day 
to the last. It informs our general statement that as the 
Congress or administration considers new powers that it has got 
to weigh what the goal of the exercise of those new powers is 
against what the effect of those new powers will be on 
individual citizens within the United States. It informs the 
recommendation that we make with respect to this board, this 
agency, this individual, whose sole responsibility it will be 
to see to the civil rights of all Americans.
    One of the decisions we tried to make--it has been very 
difficult, I can tell you, in the four weeks of making speeches 
on this subject. Everyone wants to know, well, what is your 
most important recommendation? How would you rank them one 
through five?
    We tried to avoid that. We think that they are all of great 
importance and we think that this one, or the connection of 
these two or three are of great importance as we fight 
terrorism in the United States.
    Senator Kennedy. Well, that is powerful support.
    Secretary Hutchinson, border security, entry-exit--we have 
talked about that here. This has been talked about since the 
Hesburgh Commission on Immigration going back 25 years. We 
passed a border security bill. We are doing reasonably well in 
terms of the entry, but not very well in terms of the exit. 
There have been some estimates that in order to have a really 
effective system, it is going to take 7, 8, 9 years.
    Last year, for example, we had actually a reduction in 
requests by the administration in terms of border security, 
somewhere around $300 million and it was reduced by over $100 
million, and efforts were made in a bipartisan way to restore 
it.
    Let me ask you about the exit aspects just briefly, when 
you think that can be effective so that we have comprehensive 
entry and exit, just as quickly as we can because there is one 
other area I want to cover.
    Mr. Hutchinson. We have an exit capability that is limited 
to biographical information at present, and so we do have 
information that comes in from our airline departure 
information so that we can see when people leave our land 
borders as well. We need to add the biometric feature to it, 
which we are testing at about 15 airports now. We will get the 
right technology, and then we move to our land borders. This is 
an enormously challenging prospect and funding is a part of it. 
We can go back and forth on that, but the administration did 
request $400 million in 1904.
    Senator Kennedy. Ms. Baginski, on the watch list, I want to 
know--and my time is running out here--about how this works for 
the average person. Let me give you an example. I got on the 
watch list last April. I was taking a plane to Boston and I got 
out to U.S. Air and I came up at quarter seven and I wanted my 
ticket. They said we can't give it to you. I said, well, wait a 
minute, here is a visa; there must have been a mix-up. And the 
person behind the gate said I can't sell it to you; you can't 
buy a ticket to go on the airline to Boston.
    I said, well, why not? We can't tell you. Well, I said let 
me talk to the supervisor on that. This is at five of seven. 
The plane is about to leave, and finally the supervisor said 
okay. I thought it was a mix-up in my office, which it wasn't. 
I got to Boston and I said there has been a mix-up on this 
thing in Boston. What in the world has happened?
    I tried to get on the plane back to Washington. You can't 
get on the plane. I went up to the desk and I said I have been 
getting on this plane for 42 years and why can't I get on the 
plane back to Washington. They said you can't get on the plane 
back to Washington. So my administrative assistant talked to 
the Department of Homeland Security and they said there was 
some mistake. It happened three more times, and finally 
Secretary Ridge called to apologize on it. It happened even 
after he called to apologize because my name was on the list at 
the airports and with the airlines, and Homeland Security 
couldn't get my name off the list for a period of weeks.
    Now, if they have that kind of difficulty with a member of 
Congress--my office has a number of instances where we have the 
leader of a distinguished medical school in New England, and 
the list goes on--how in the world are average Americans who 
are going to get caught up in this kind of thing going to be 
able to get to be treated fairly and not have their rights 
abused?
    Then just finally if you can just tell us what the 
justification was for the investigation of those FBI agents out 
in Colorado with the six agents interviewing that 21-year-old 
woman that has been reported in the paper.
    Thank you.
    Ms. Baginski. I will deal with the last issue first because 
I think I can deal with that more succinctly. We have read the 
New York Times representation of our activities and compared 
that to the actual activities. I think as you know, we engaged 
in interviews of people based on specific intelligence that 
they planned to perpetrate violent acts at the Democratic 
National Convention, and we are also looking at the Republican 
National Convention in that dimension.
    There are many of you who I think are rightly concerned 
about that in light of the press treatment. What we have 
offered to other committees and what we would like to offer to 
you is a written accounting step by step of what was done so we 
can separate fact from fiction on this and hopefully ease your 
concerns and those of the American people.
    Chairman Hatch. We would appreciate that.
    Senator Leahy. I would like one, too.
    Ms. Baginski. Yes, sir. On the issue of the--
    Chairman Hatch. How about the conspiracy to stop Senator 
Kennedy from getting where he wants to go?
    [Laughter.]
    Senator Kennedy. Notice that I didn't accuse the 
Republicans of doing that.
    Chairman Hatch. No, no, but it was implied, we know.
    [Laughter.]
    Ms. Baginski. I think actually the answer to that is a 
combination of the two of us.
    Asa, do you want to start?
    Mr. Hutchinson. If I might, Senator, we do regret that 
inconvenience to you.
    Senator Kennedy. No problem, no problem.
    Chairman Hatch. Asa, don't be so quick to say that.
    [Laughter.]
    Senator Leahy. We have had this problem with Irish 
terrorists before.
    Mr. Hutchinson. It is important for the average citizen to 
know the process. They can call our TSA ombudsman, who will 
take the information down, verify that their name is not the 
same as what is confusingly similar on the list. And we can 
actually enter into the database that they have been cleared, 
so that that should be prevented in the future. So there is a 
process to clear names, but it does illustrate the importance 
of improving the whole system, which we are very aggressively 
working to do. We need to own that no-fly list.
    Thank you very much, Mr. Chairman.
    Senator Kennedy. My time is up. Thank you, Mr. Chairman.
    Chairman Hatch. Ms. Baginski?
    Ms. Baginski. Just to complete the part of it in terms of 
the responsibility for the authoritative list, of course, on 
the international side it resides with the TTIC, the Terrorist 
Threat Integration Center, so the vetting of those names. And 
then, of course, for the domestic side, it would come from the 
FBI. And those are fused, I think, as you know, in the 
Terrorist Screening Center. So I do have some responsibility 
for the pedigree of that information that comes from 
intelligence, and I want to assure you that we review that on a 
regular basis.
    Chairman Hatch. Thank you.
    Senator DeWine.
    Senator DeWine. Thank you, Mr. Chairman. Let me thank all 
of you for your great work and the very wonderful job each one 
of you has done.
    Ms. Baginski, let me ask you the first question. You talked 
about in great detail improvement in the area of intelligence 
and information. The September 11th Commission outlined in 
great detail a lot of the problems, and I think we all are very 
familiar with the story leading up to September 11th.
    Explain to me in layman's terms what is different today 
from what was the situation on September 10th as far as the FBI 
is concerned, and in terms of an FBI agent. Senator Leahy has 
described the problem and our continuing frustration, and I 
know Director Mueller has the same frustration with the 
computer system that is not progressing as fast as we would 
like it to.
    What is the difference today for an agent who seeks 
information or who needs information or who wants to share 
information, and not in general terms, but in real specific 
terms?
    Ms. Baginski. I can answer this in terms of technology and 
also--
    Senator DeWine. No, I don't want that. Give me an example 
that I can understand. What matters? What is the difference 
today?
    Ms. Baginski. I think there are three areas and I will try 
to cover them in as much detail as I can. First--
    Senator DeWine. No, no, I don't want three areas.
    Ms. Baginski. You want a specific example?
    Senator DeWine. Yes. Give me an example; tell me a story in 
the next 5 minutes. What difference does it make? How are we 
any better off today than we were prior to September 11th? Tell 
the American people why they should feel better.
    Ms. Baginski. On the first order, terrorism is the number 
one priority of every member of the FBI. Since 9/11, as you 
know, with our responsibility, we have expanded our number of 
joint terrorism task forces, which are--
    Senator DeWine. Excuse me. I am sorry.
    Ms. Baginski. I am still not doing what you want. I know 
you want a specific example.
    Senator DeWine. Okay, no. Tell me what an FBI agent knows 
today or can do today that he or she couldn't do.
    Ms. Baginski. Okay.
    Senator DeWine. What can they share? What comes up on their 
computer screen? How is that?
    Ms. Baginski. I got it. Before 9/11, agents could not send 
with any ease e-mails to one another across a secret network. 
Now, that can be done. Before 9/11, agents did not have access 
to other agency intelligence production in the joint terrorism 
task forces, and now they do. So they can actually go into a 
database and enter on that like system and actually access that 
information and find out if there is other information that 
they need and can act upon in terms of working the case.
    Prior to 9/11, all cases in the FBI, I think as you have 
all said, would have been opened first as counterterrorism 
cases in the sense of prosecution. Post 9/11, all cases in the 
counterterrorism arena are opened as intelligence cases first, 
so that instead of the intelligence component being a sub-file 
in the larger case, the intelligence is driving that and is one 
of the tools in the tool kit that the agent brings to bear on 
neutralizing a threat.
    Prior to 9/11, the intelligence analysts at the FBI could 
not with any ease ask questions of data that was aggregated for 
them and do federated queries across the database. Since 9/11, 
we can.
    Senator DeWine. What kind of search can I do now?
    Ms. Baginski. If you are an analyst, you can do a search 
against a finite body of information at the secret level on one 
network and at the top secret and higher on another network 
that, in fact, is exactly what you can do in your living room. 
You can ask questions of the data and the answers will be 
pushed to you.
    Senator DeWine. What if I am an agent in San Diego and I am 
working on a particular case and I am wondering if there is a 
similar case somewhere else in the country and I want to put in 
a series of words? Can I do that?
    Ms. Baginski. You can. You can do a word search and you 
will get the answer.
    Senator DeWine. I will now get the answer?
    Ms. Baginski. Yes, sir.
    Senator DeWine. What can't I do now that I should be able 
to do in 2 years or 3 years or 4 years? What are you frustrated 
about? What are you upset about? What bothers you today that 
you can't do?
    Ms. Baginski. I think there are three critical areas. The 
first would be being able to operate in a top-secret, code-word 
environment, which is connected to the Commission's 
recommendation to help us with our secure, classified 
information facilities.
    All of the field offices have secure, classified 
information facilities. They are very, very small areas. I 
sometimes joke that they look like closets, and they generally 
have an Intelink computer there. What I am saying is if we want 
to be part of this network in which the larger intelligence 
community operates, we need that kind of--
    Senator DeWine. Excuse me. I don't understand what that 
means. Does that mean that only a limited number of agents have 
access to that? Is that the problem, or what does that mean?
    Ms. Baginski. Well, the physical access is determined by 
your security clearance. So, of course, everyone that is 
cleared to the secret and top secret area, which is the way 
that we do our clearances, would have access. My point is it is 
usually one or two terminals which--it is the hardware that is 
limiting, if you understand. The secured, classified 
information space is necessary to be expanded to accommodate 
that hardware and the network.
    Senator DeWine. So that creates the problem of what, just 
not enough people being able to get at it that need to get at 
it?
    Ms. Baginski. Yes, sir. As I expand the number of analysts 
that are out in the field, which is what I really need to do, I 
am going to need more space for them to access that classified 
information.
    Senator DeWine. Would every field office have access to it, 
though?
    Ms. Baginski. Yes, sir.
    Senator DeWine. What other problems are you having that you 
would be able to solve in the next couple of years when the 
system is totally up?
    Ms. Baginski. The other, I think, issue for all of us is 
what I think Senator Leahy was referring to, which is the 
automatic entry of information into corporate databases. 
Trilogy, as you know, was three initiatives. Hardware is there; 
the LANs are there. It is the application, the virtual case 
file case management application, that allows the automatic 
entry of this information into corporate databases for follow-
on analysis. That is the part that is delayed. So we have 
delivered two, except for this application.
    I think the solution of that in the hands of our chief 
information officer will help the robustness of my analysts' 
database, which is called the Investigative Data Warehouse. 
That will help my analysts have the breadth they need of 
information to actually do the queries against.
    Senator DeWine. When do you expect that to be up?
    Ms. Baginski. We will have some delivery of that by the end 
of this year, and I would like to get back to you with a 
specific date because I am actually not as current on that as I 
should be.
    Senator DeWine. Sure.
    Ms. Baginski. Lastly, for me, I have a training issue and 
it is not a small issue and it is going to require an 
investment both in terms of facilities and in terms of 
expertise and in terms of time.
    In building this cadre that has been recommended to us by 
the Commission, and I think very rightly recommended by the 
Commission, there is a wonderful training capacity in Quantico. 
There is a very powerful FBI, and I would say law enforcement 
brand in Quantico, but to build in there that same expertise 
and capacity for teaching intelligence to the agents and to the 
analysts and to the linguists, and then to our partners in 
State and local law enforcement--that actually is an investment 
and is going to be both in time and in some facilities and 
infrastructure.
    I am very pleased with the work we have done. I just want 
to share with you very briefly--we have just overhauled our 
basic analysis training, seven core learning objectives. Those 
learning objectives are now being worked into the new agent's 
class. They are the same learning objectives, the same modules, 
and the magic will be that we will have agents and analysts 
doing joint exercises together when they are in training. Now, 
we need to offer that to our State and local partners. The 
National Academy has been very powerful in that partnership. We 
need to be able to offer that same thing.
    Thank you.
    Senator DeWine. Thank you very much. I appreciate it.
    Chairman Hatch. Senator Leahy wanted to interject here.
    Senator Leahy. I am not sure I fully understood. To follow 
what Senator DeWine was saying, and I am not sure I understood 
the question, if you want to do a search, for example, could 
you put a series of words in the same search, like, for 
example, southwestern, alien, flight training? Could you put 
that all in as one thing and have it searched down there, or do 
you have to put in each word separately in the search?
    Ms. Baginski. We can, in fact, in the Investigative Data 
Warehouse, which actually started out as something called the 
Secure Operational Prototype--it was all based on terrorism--we 
can do the string that you are talking about, the multiple 
words.
    Senator Leahy. And you can do that in--
    Ms. Baginski. I beg your pardon?
    Senator Leahy. You can do that in--
    Ms. Baginski. In Trilogy? Is that what you mean, sir?
    Senator Leahy. Trilogy, yes.
    Ms. Baginski. IDW is actually something that I would call 
separate from the Trilogy package that you and I have been 
talking about.
    Senator Leahy. You can do it in Trilogy, though?
    Ms. Baginski. Trilogy is not a data warehouse that you 
would search against. That is why I am having trouble answering 
the question. Trilogy is hardware, as you pointed out, 
computers on desktops. It is local area networks, wide area 
networks for the connectivity, and it is the case management 
application.
    The case management application then feeds the Integrated 
Data Warehouse that I am describing that allows me to do the 
search.
    Senator Leahy. You could do a multi-word search?
    Ms. Baginski. In the Integrated Data Warehouse, yes, sir.
    Senator Leahy. Thank you.
    Chairman Hatch. Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman.
    We appreciate very much your appearance here this morning. 
I have three questions that I would like to address to the 
Commission members, and I think all of us here and people who 
are watching on television are interested in your opinions on 
these questions because you have been so immersed and you have 
a written a report which is on the bestseller list. So, 
obviously, all Americans are concerned with your work and with 
what is going to happen to your work.
    As Senator Kennedy pointed out, the history of commissions 
in terms of their effectiveness and implementation of their 
recommendations is not good. In the case of the world in which 
we are living right now, your recommendations are high on the 
list of every American's thoughts.
    So, first of all, on your arguably most important 
recommendation that we have a national intelligence director to 
coordinate all the things that we are talking about this 
morning and the things that you have recommended in your 
report, already we have seen that the Secretary of Defense has 
basically come to a disagreement with you on the need for a 
national intelligence director or on the efficacy of such a 
person. The President himself, I believe, has said perhaps a 
NID, a director, but not with control over budgets and 
personnel.
    Now, the way Washington works is if the Secretary of 
Defense, who spends 80 percent of the intelligence money that 
we allocate, and the President are not in support of that 
recommendation, what are the chances of getting that through, 
number one?
    Number two, this is all about fighting terrorism and making 
Americans more secure. In the Muslim world today, our standing 
is as low as it has ever been. The number of people who are in 
strong dislike, if not outright hatred, of the United States 
and willing to do as much damage as they can to the United 
States--the number of people in that category is growing ever 
higher everyday. How are we going to ever win the fight on 
terrorism and make America more secure if, in the short term, 
if not the long term, we are not making progress in this area?
    Number three, I would like to ask you about the color 
coding system. Does it make any sense, in your opinion, for us 
to have a national color coding system; for example, the 
orange, which is the second highest alert, to place the whole 
country on an orange alert, when, in all probability, it is 
specific parts of our country that need to be placed on alert? 
Do we need to sharpen up that color coding system to make 
Americans all across our country more aware of who is at the 
greatest risk and who is at minimum risk when, in fact, we 
issue that kind of a warning to the American people?
    So it is three things--the national intelligence director, 
our problems within the Muslim world today and how are they 
going to manifest themselves going forward, and the color 
coding alert system.
    Mr. Gorton. You have covered the waterfront, Senator Kohl.
    Senator Kohl. Well, you have been thinking about this now 
for months and months and months, and you obviously have 
opinions that are of great interest to those who are watching 
on television.
    Mr. Gorton. First, on the national intelligence director, 
on that system, remember we pair two things--the national 
counterterrorism center that we think is vital and we have 
discussed earlier, whose functions are just counterterrorism, 
and a national intelligence director, who will cover the 
waterfront as far as intelligence is concerned.
    In one sense, ours is a very conservative recommendation 
because we go back with this National intelligence director to 
what the CIA Director was supposed to have been in 1947 when it 
was created, which was the overseer of all of the intelligence 
of the United States.
    Well, first, of course, the CIA has become bigger and more 
complicated. Just running the CIA is clearly a full-time job. 
But, secondly, because of the absence of any effective budget 
control over roughly 80 percent of the budget, no CIA Director 
could really fulfill that function in any event.
    So what we think is that 50 years ought to have taught us 
that if you are going to have someone who oversees all of the 
intelligence activities of the United States and does planning 
for all of them, that individual should have control over at 
least the supervision of the budget and some very real 
influence over personnel, as well. And we do feel very strongly 
about that. If you just do again what you did in 1947, you 
aren't going to have any more effect. That position must have 
power.
    I guess personally I am less pessimistic than you are. I 
think the administration's objections to it at least are 
softening, but it is going to be a decision Congress is going 
to have to make. And we feel very, very strongly that if you 
are going to create a national intelligence director, that 
individual should have budget authority and should have some 
personnel authority.
    Certainly, no national intelligence director is going to 
starve the military of the intelligence information that it 
needs. It is impossible to imagine.
    Second, we make recommendations with respect to the war on 
terrorism on three levels, and we distinguish those levels. One 
is that in dealing with those enemies that are absolutely 
irreconcilable, you know, we simply have to recognize they 
declared war on us a long time ago, and we are at war with 
them, and it should be conducted as a war, and we need to deny 
them sanctuaries and the like. The overwhelming challenge is 
the one that you raise, is how do you separate that large but 
small in percentage group of enemies from the vast majority of 
Muslims who are peace loving and want better lives for 
themselves and for their children. That is a tremendous foreign 
policy challenge, but it is a challenge that we must make. We 
make some general suggestions in that connection, more specific 
with three countries, but general suggestions about carrying 
out our own message.
    Finally, on the color code system, I share your 
frustration. Just to tell everyone in the United States you are 
on orange alert now, that makes it even harder to get into an 
airport or on an airplane, but does not tell any local 
enforcement that there is some specific challenge in your 
place, seems to me at least to be rather frustrating.
    I think the more recent one, where the warnings were very 
specific, is the way in which we should go. Now, there is still 
going to be criticisms as there have been of that, but I do 
think that at least those are meaningful.
    Now, the real paradox in this country today is that we have 
not had any other attack since 9/11, and every time there is 
not one, people become more relaxed, and to a certain extent 
more complacent. Even if a warning from Homeland Security may 
have prevented an attack, we will never know that it did, and 
it leads to a certain degree of cynicism with respect to 
whether or not we were calling ``wolf.'' That is a challenge. 
It is a challenge any administration will have. But I do think 
the more specific way in which the Department is operating is 
better than that national orange alert.
    Mr. Hutchinson. Senator Kohl, could I just jump in there? 
That we certainly share the reservation about raising the 
threat level nationally if we have intelligence that we can 
narrow it. We are very grateful that the intelligence 
collection was very effective this last time. We were able to 
do it narrow in the financial sector in certain geographic 
areas, so we recognize, and we do evaluate the burden that 
falls nationally with the law enforcement community when we do 
raise that threat level, and we are certainly looking, with 
Congress, for ways to refine that system.
    Senator Kohl. Congressman Hamilton, would you--
    Mr. Hamilton. Senator Kohl, first of all, I have been 
getting an inferiority complex here, hearing all these stories 
about ineffective presidential commissions and Congressional 
commissions. I want to respond to that, and say that there are 
some commissions that have worked. The Greenspan Commission on 
Social Security reported. The Congress adopted it in total, a 
few months before the election, as I recall. I served on the 
Hart-Rudman Commission. This gentleman would not be sitting 
here today if it had not been for our recommendations. We 
recommended the Department of Homeland Security. So some of 
these commissions do have recommendations adopted.
    You asked what are the changes of the National Intelligence
    Director and the National Counterterrorism Center being 
adopted. That is a tough one. Look, we understand we have put 
forward here a fairly radical proposal. The President has 
endorsed the idea of a National Intelligence Director. He has 
endorsed the idea of a National Center for Counterterrorism. 
What is not clear is what powers he would give to those 
positions, and I think that is still a matter very much under 
discussion in the administration.
    Secretary Rumsfeld expressed a wariness. He did not object 
to a National Intelligence Director. He just expressed a kind 
of a wariness about the idea. That is understandable.
    Look, we have a tough problem here. On the one hand the 
military says, we want all of this intelligence to protect the 
war-maker, and I do not know anybody that wants to make it more 
difficult for the war-maker. We want to provide information for 
the war-maker, and none of us want to limit the intelligence 
flowing to the war-maker. But you also have an obligation to 
protect the American people. In order to protect the American 
people, you have to have intelligence not just flowing to the 
war-maker, you have to have intelligence flowing to this 
policymaker, the strategic and the national intelligence.
    Where do you draw the line between strategic and national 
intelligence on the one hand, tactical intelligence on the 
other hand? In many cases it is very easy, very simple. But 
there are a number of areas, particularly in the areas in which 
the Defense Intelligence Agency is involved, for example, where 
it gets a little murky, and the Secretary is right to be 
concerned about that. Take the U-2. The U-2 flies all over the 
place, takes a lot of pictures, and many of those pictures are 
of enormous importance to the tactical commander on the field. 
Nobody wants to interrupt that. But that U-2 also takes 
pictures that are tremendously important to the policymaker. 
Who should control that asset?
    What I am suggesting here is that the debate that is going 
on is not a frivolous one. It is not an ideological one. It is 
a very practical one, and the issues are not always clear-cut. 
They often are. So I have welcomed the support that has been 
shown to the Commission's recommendations. I understand a lot 
of recommendations we made raise big questions in the FBI, big 
questions at the DHS, and certainly big questions at the DOD. I 
think we can work through this and come up with a solution that 
is reasonably satisfactory.
    The second question about the Muslim world, Senator Gorton 
I think was on the mark there. The distinction that has to be 
made is this very, very small group of people who are out to 
kill us, al Qaeda, Osama bin Laden and his top cohorts. That is 
not a hard question from a foreign policy point of view. You 
have got to remove them, whatever that means, capture, kill, 
whatever. You are not going to convert Osama bin Laden to 
democracy or to our way of life. In a sense, that is easier--
not easy to carry out, but easy to articulate--foreign policy. 
The tough part is this Muslim world that you express your 
concern about, and so do we in the report.
    Here you have, stretching from North Africa to Indonesia, 
millions and billions of people who, if the polls are correct, 
do not think very highly of us, hold us in very low esteem, 
admire Osama bin Laden, are sympathetic with much of what he 
says, but may not endorse his violence. And if the war on 
terrorism is to be won, we have to appeal to those people, and 
that is one of the reasons we say this is a generational 
challenge. You cannot do it in a year or two.
    How do you do it? Well, we tried to put forward some 
suggestions, but the important point here is, for me at least, 
is if you are thinking about counterterrorism policy, what 
should the United States do to deal with terrorism? You cannot 
get all hung up in the boxes. You cannot get hung up on 
terrorist financing. You cannot get hung up on the FBI. You 
cannot get hung up on DHS. You have to see it as necessary to 
put together a integrated, balanced effort dealing with 
military action, covert action, law enforcement, treasury 
actions to stop the flow of money, public diplomacy in many, 
many areas. The tough part of counterterrorism policy is to get 
all of that integrated and balanced.
    One of the aspects of it is to show to them, the Muslim 
world, if you want to put it in simple terms, that we are on 
their side in terms of wanting a better life. We want for them 
a better life and better opportunities. You know the figures 
with regard to young men in these countries, 40, 50 percent 
unemployment. Where do they go? What do they do? Why do they 
turn to violence? That is not a impossible question to answer. 
Their life has nothing in it to give them any hope. We cannot 
solve all those problems. We do not have the resources to solve 
all those problems. We can encourage the governments to move in 
the right direction, become more open, more transparent, to 
become more concerned about their people. We think there are a 
lot of things you can do to that are perhaps symbolic, but 
nonetheless important. Every politician knows how important it 
is to let people know you are on their side. You have 
constituents that come up to you all the time that ask you to 
do something that you cannot possibly do. But the important 
thing, in a political sense, is to let those people know you 
are on their side, you want to help them with their problem. 
Maybe I am too simplistic about this, but I think that is what 
you have to do in American foreign policy, you have to let 
these people know we are on their side and we want to help.
    Okay. You have decided to put $100 million, I think it is--
I may not be quite right on that figure--into the school system 
in Pakistan. If you know anything about the school system in 
Pakistan, that is a drop in the bucket, but I think it is very, 
very important to let those people know we want a decent 
education for a lot of Pakistanis, and we want to provide an 
agenda of hope, and we want to be on the side of hope for these 
people.
    What does Osama bin Laden offer these people? Death, a very 
tough life. What do we offer? We have an awful lot to offer, 
and we have just got to be able to put this all together in 
American foreign policy in terms of a robust public diplomacy, 
in terms of increased scholarships.
    I used to go to Eastern Europe all the time when we had 
those cultural centers during the Cold War, and people were 
constantly attacking them as being a waste of money and a waste 
of time, but you would visit those offices in Prague or Warsaw 
at 10 o'clock at night, and we had to throw then out of there. 
They were so anxious to learn something about the United States 
of America, and I thought those were enormously important, and 
I think you have to do a lot more of the same with regard to 
this Muslim world.
    We are not going to solve this problem in a week or two or 
a year or two or in my lifetime, but we have to get started on 
it.
    Chairman Hatch. Thank you, Lee.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    A very profound statement, Lee. I am one of the folks who 
was somewhat skeptical about the formation of this Commission 
when it started, in some part because of exactly what Senator 
Kennedy alluded to there, that thick book he held up. I know he 
is exactly right about it, but I just want to tell you guys, 
and I have known both of you for a decade and have had the 
opportunity to work with you and have great respect for both of 
you, and I think your Commission did a really find job, not 
just in what you recommended, but you did an awful lot of 
research and you put it in black and white where Americans can 
understand it. I hope this report continues to be on the best 
seller list for months to come.
    I appreciate you setting the record straight relative to 
what the President and Secretary Rumsfeld, as well as others in 
the administration, have said. I am one who, because of your 
report in part, has come around to a way of thinking that we do 
need a National Intelligence Director, and we are going to have 
one. It may take us somewhat longer than what some folks would 
like for it to happen, but it is going to happen. But the 
President has been very specific in saying that he has not shut 
the door on what kind of power and authority this individual 
ought to have and that is open for discussion. That is the kind 
of leadership that we expect out of our President and we are 
getting out of our President on this specific issue.
    There has been a compilation, Mr. Chairman, of a side-by-
side of the 41 recommendations that the 9/11 Commission made, 
and either the action on the part of the administration, a lot 
of which was alluded to by Secretary Hutchinson, and the ones 
that have not been acted on, the particular consideration that 
is being given to those recommendations. Thirty-nine of the 41 
have either been directly acted on or are under consideration. 
The only two that have not been, interestingly enough, are the 
two relative to the reorganization of Congress.
    [Laughter.]
    Senator Chambliss. I introduced a copy of that yesterday in 
the Intelligence Committee hearing, and I would like unanimous 
consent to introduce that today as part of this hearing.
    Chairman Hatch. Without objection.
    Senator Chambliss. Ms. Baginski, I want to tell you an 
anecdote particularly with the strong support coming from the 
9/11 Commission about the PATRIOT Act. I have been a strong 
supporter of it. I think it was the right thing for us to do, 
and I think it has been very effective. I met with most of my 
JTTF in Atlanta recently, and an interesting comment came out 
of that group when we were talking about the PATRIOT Act. What 
one FBI agent said was, he said: The enactment of the PATRIOT 
Act has been crucial to us winning the war on terrorism, and we 
need for every bit of it to be extended. And he said: I will 
tell you that it has not been the great asset that a lot of 
people thought it would be relative to the arrest and 
prosecution of terrorists, but what it has allowed us more 
importantly to do, and on many more cases than have been 
prosecuted, is to eliminate suspects from suspected acts of 
terrorism.
    I think that is critically important when we are talking 
about invasion of freedom and liberty, and, Lee, you are right, 
we have a delicate balance there that the PATRIOT Act has to 
meet. But I was particularly intrigued when that agent told me 
that we have relieved a lot of people's minds because we had 
the PATRIOT Act. We would not have been able to do the that had 
we not had the PATRIOT Act.
    One quick question, Lee and Slade. You are, rightly I 
think, very critical of the FBI from an information sharing 
standpoint. You identified them as one of the biggest abusers 
of the frankly lack of information sharing, and I have done the 
same thing, as you know. While there have been great strides 
made there, the one glaring area to me you left out was DOD's 
information sharing. What did you conclude relative to the acts 
of DOD regarding information sharing, and is there any kind of 
model there that we can look at for the future?
    Mr. Hamilton. There are a number of very important 
intelligence collection agencies in DOD. You have got the NSA, 
you have got the NGA, you have got the NRO, and you have got 
the Defense Intelligence Agency. There are probably others as 
well. And one of the interesting things about the intelligence 
community is that, as you know, that is the way it is 
organized. It is organized around collection, how you collect. 
And when you stop to think about it, it ought to be, at least 
in my mind, not organized on the way you collect, but it ought 
to be organized on your mission, what you are trying to 
accomplish, and that is why we get into the national 
intelligence centers and the National Counterterrorism Center.
    We believe all of those agencies I have mentioned and 
others do a very good job of collecting information. We collect 
vast amounts of information in this Government. Every minute or 
two we are collecting millions of bytes of data, and the big 
problem is not so much collection as it is analysis and 
assessment. But we think the stovepipe phenomenon has seriously 
hurt our overall intelligence agency, and I think there have 
been improvements made since 9/11, but nonetheless, still there 
is this kind of focus on, we collected this information, we 
will keep it, and the sharing mechanisms are informal, they are 
not institutionalized. They are better I think than they were, 
but I think we have a long way to go to get the kind of free 
flow of information that is vital to counterterrorism efforts.
    Mr. Gorton. Lee is entirely right in that connection, and 
Senator Kennedy referred to the fact that much of the 
information that we gather through the signals things does not 
get translated or does not get translated in real time, and the 
sharing arrangements were highly informal. Now, one major 
improvement since 9/11 was the creation of the Terrorist Threat 
Integration Center, which is designed to see to it that 
information from here and information from there and from the 
CIA and the Defense Department gets to someone who can 
distribute it to the people in the agencies who know about it. 
In one very real sense, our recommendation for a National 
Counterterrorism Center builds on that. Our impression is that 
it has done a pretty good job, but it is headed by a relatively 
mid-level executive on loan from the CIA, and it has people on 
loan from the FBI and on loan from the Defense Department and 
other agencies, who know their long-term career is somewhere 
else. They obviously cannot tell those agencies what to do.
    If you have a National Counterterrorism Center headed by a 
presidential appointee confirmed by the Senate with the power 
to demand cooperation, and even more significantly, the power 
to say: here is something we are missing in the field of 
terrorism, I think it falls within the FBI's jurisdiction, so 
you go out and look for it here, CIA go out and look for it 
somewhere else, we will make that a much more powerful and 
effective entity.
    Are we doing a better job now than we were before 9/11? 
There is no question about it. Can we do a better job, 
including the integration of these Defense Department agencies 
which are really the 800-pound gorilla? At least from the point 
of view of the technology they have and the money they have, 
clearly we can.
    Senator Chambliss. Thank you, and thanks to all of you for 
the great job you are doing.
    Chairman Hatch. Thank you, Senator.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman for holding this 
hearing.
    I too want to thank Commissioners Hamilton and Gorton, and 
all the Commissioners and members of the staff of the 9/11 
Commission for your incredibly important and effective service. 
I cannot emphasize enough how vital your work is to the 
American people, and how significant and refreshing it is, that 
your reports and recommendations are bipartisan and unanimous.
    Chairman Hamilton, let me particularly thank you for your 
comments today, your candor with regard to certain, as you 
described them, astonishing powers of the Government, and also 
your enormous eloquence in your recent comments to Senator Kohl 
about some of the real foreign policy challenges that are 
before us.
    I supported the creation of the 9/11 Commission because I 
believed it was crucial to review what went wrong leading up to 
the fateful day in September, 3 years ago, what we can learn 
from those mistakes and what we should do to improve our 
Nation's defenses against a future attack. But I will confess 
that this product greatly exceeded my expectations and even my 
hopes. You have provided us with a template for how to make our 
country safer and stronger. It is not time to implement these 
recommendations. We need to work out the details carefully but 
quickly, and in a bipartisan manner, taking our cue from the 
work of the Commission. Our Nation must effectively combat the 
terrorist threat we face. That must be the very highest 
priority of the Congress. We need real reforms now, 
particularly with regard to our intelligence community and our 
intelligence oversight, and I obviously look forward to working 
with my colleagues on both sides of the aisle as we do that.
    Let me ask questions of Congressman Hamilton and Senator 
Gorton. The Commission has created an extraordinary sense of 
urgency about its recommendations. It seems very possible, if 
not likely, that we will consider the legislation on the floor 
with regard to this prior to the election. You have created a 
very fast-moving train for these recommendations, and I do 
salute you for that. Both of you served with distinction in the 
Congress, so you know very well that fast-moving legislative 
trains are vehicles that are tempting targets for pet projects. 
So I want to get your reaction to some possibilities that, 
given the highly-charged political atmosphere we are all 
working in, do not seem all that farfetched to me.
    First let me ask you about potential efforts to attach or 
sneak in unrelated legislation to the bill that implements your 
recommendations. Will you as a bipartisan group oppose and 
speak out against efforts to use this legislation as a vehicle 
to force the enactment of other unrelated bills in the closing 
hours of this Congress? Congressman Hamilton.
    Mr. Hamilton. Senator, I do not think we view our 
responsibility to tell you how to get the job done. We think 
the recommendations we have made are important and we think 
they are urgent, and we urge quick action on them, but also 
careful action, as you said in your statement. The 
Commissioners are committed to trying to get the 
recommendations enacted, and we will speak out in favor of 
those recommendations. I understand, and Slade understands, the 
intricacies of the legislative process, but our eye will be on 
the target, and our target is to get these things enacted.
    Mr. Gorton. Senator, we are not only gratified, but I may 
say, surprised at the quick and decisive action so far during 
the month of August, that 18 years in the Senate I do not 
remember an August when I was back here at hearings like this. 
It is an imposition on your time, and I think a tribute to your 
concern for what we have recommended that you have been doing 
this. And reading assiduously all our clips, I have not seen 
any indication of people trying to put pet projects on any of 
this legislation. We hope that you will pass legislation. Your 
procedures for doing so, of course, are for you to decide for 
yourself, and so I just simply associate myself with Lee. We 
hope you will act judiciously and carefully and thoughtfully, 
but because of the nature of this threat, we hope you will be 
able to act quickly.
    Senator Feingold. Thank you. I would just comment that the 
American people I think are proud of what you have done here, 
and one of the things that could most quickly undercut what you 
have done is if somehow this legislation became a vehicle for 
other agendas. But I do respect your caution in your answers.
    In the report you repeatedly note the importance of 
protecting civil liberties, and I am pleased that you highlight 
that point, as I indicate, in your testimony as well. You say, 
Congressman Hamilton, that we must find ways of reconciling 
security with liberty, and of course, I strongly agree with 
you. Noting that some provisions of the PATRIOT Act will sunset 
at the end of 2005, you called for, and I am quoting here from 
page 394 of the report, ``A full and informed debate on the 
PATRIOT Act.'' Can we count on you to speak out against 
attempts to short-circuit the full and informed debate you have 
called for by adding PATRIOT Act reauthorization provisions or 
new law enforcement powers to the legislation that we will 
potentially consider in the next few weeks?
    Mr. Hamilton. My recollection is that we commented with 
approval on the sunset provision in the PATRIOT Act, and 
because of the sensitivity of increasing Government powers, and 
the protection on the other hand of human freedom, human 
liberties, we think it is a very, very important matter for the 
Congress to try to balance these as best they can. Your 
specific question, would we comment about any effort to short-
circuit consideration of the PATRIOT Act, I think we recognize 
the issues in the PATRIOT Act are very serious issues, and we 
would favor full and open discussion of them.
    Senator Feingold. Senator Gorton.
    Mr. Gorton. I cannot add to those comments. I agree with my 
Vice Chairman.
    Senator Feingold. In the few seconds I have left, let me 
simply say that it is almost inherently the case that if we 
were to completely reauthorize every word of the PATRIOT Act 
during this accelerated period between now and the election, 
that it is impossible for this Commission's recommendation with 
regard to this to occur, and that the proper time for that 
consideration is at the time of the expiration of the sunset, 
but I certainly am not trying to put words in your mouth, just 
I believe that is a reasonable conclusion from what the two of 
you have said.
    Thank you, Mr. Chairman.
    Chairman Hatch. Thank you, Senator.
    Senator Schumer.
    Senator Schumer. Thank you, Mr. Chairman. I thank you for 
having this hearing in a timely way.
    And I thank all of our panelists for the good work they do. 
I have worked with Asa Hutchinson and Maureen Baginski in their 
respective roles, and they are both responsive and involved and 
really caring about tightening up security in our Nation. I 
cannot say enough good about the 9/11 Commission. I think it 
was just an incredible, an incredible, incredible tour de force 
in terms of the recommendations, in terms of the 
bipartisanship, in terms of the refusal to point fingers of 
blame, which makes the media all happy but does not really 
solve the problems here, but instead looks for the future. So I 
compliment you all on that.
    I am worried. I want to address this to our two 
Commissioners. I know it has been touched on, but I am worried 
that a lot of your recommendations are either not going to 
happen or more likely, what usually happens in Washington, we 
look like we are doing something, but we do not do them. The 
Director of the National Intelligence is a classic. The 
President came out early for it, but did not give it the teeth, 
did not say he was for the budgetary and the hiring authority, 
which you had mentioned, Slade, was supposed to be in the 
original CIA and somehow got lost over the years. And then 2 
days ago we heard Secretary Rumsfeld, and he is representing 
the Defense Department, and obviously, the interests of the 
Defense Department, come out and basically--I mean we all have 
been around Washington long enough to know he was throwing cold 
water on your proposals even if he did not say it directly.
    So I have a few questions on that. First, are you going to 
take strong and direct action to try and make sure we enact a 
full DNI, Director of National Intelligence, with budgetary and 
hiring authority before Congress adjourns this year, including 
however you see fit to do it, making sure that the President 
supports those proposals or is told that he ought to? Slade?
    Mr. Gorton. That is exactly what we have done. We have made 
our recommendations. We have said that our recommendations are 
integral, that they fit into one another, and that we cannot 
say that doing them partway or piecemeal is going to provide 
the necessary degree of public security for the people of the 
United States that it is our conclusion that they deserve and 
can have.
    I think that all of us are probably more optimistic maybe 
than your question on this. We do not see, at least so far in 
any of the comments, some kind of veto coming from the 
administration, and we see that the legislation is going to be 
written here. Just 2 days ago, as I understand it, Senator 
Roberts and Senator Rockefeller submitted drafts to the 
Governmental Affairs Committee that are essentially what we 
have recommended. That is the legislation that we recommend be 
passed.
    Senator Schumer. Right. Do you worry that the House may 
not, you may not get a vote on it in the House? The Senate you 
will get a vote on it one way or another.
    Mr. Gorton. I think we will. I have already attended one 
House hearing in Los Angeles on the subject, and have another 
tomorrow. I think members of the House are equally interested 
in doing something.
    Senator Schumer. Let me ask you this, because when Porter 
Goss was nominated, it was early on I think, I was the first 
Democrat to say good things about him. I think he is a good 
man. I served with him in the House, and I think he has 
integrity. My worry is that will be a substitute for doing the 
recommendations that you suggested on the Director of National 
Intelligence, that we will do Goss, and then we will say, Let 
us come back. Let us let him have an assessment. He has not 
been that friendly to your recommendations. What would you 
think of trying to tie the two together? I think this is much 
more of an issue of structure than of one individual person, 
but of us--and we could probably do this here in the Senate--
saying, yes, let us approve Porter Goss, and let us approve the 
9/11 Commission's recommendations on DNI at the same time?
    Mr. Gorton. That is beyond our pay grade, Senator.
    Senator Schumer. Oh, no, it is not. I would simply say to 
you that I am more worried maybe than you are. I was delighted 
to hear Pat Roberts come out and say what he did, but I think 
we have a long way to go, and frankly, that does not absolve 
this body. I think we have the same problems here, maybe even 
more so in terms of creating a Committee that has oversight 
over all intelligence with budgetary and other kinds of 
authority, which we do not have now, and no one is happy with 
the oversight that the Intelligence Committee is able to do 
because of their lack of power.
    I would just hope that you will be real strong on this, 
saying it and then letting it--because if we do not do it by 
November, I am very worried we may never do it, and the fine 
work that you have done may be put on the bookshelf.
    Do you have any comments on this, Lee?
    Mr. Hamilton. Well, we feel very positive about our 
recommendations. We think if they are adopted the country will 
be safer. We think it is terribly important that the National 
Intelligence Director have full authority of budget, 
information systems, personnel, and we go so far as to say that 
if he does not have those powers, do not bother with it.
    Senator Schumer. Right.
    Mr. Hamilton. No sense creating it because then you really 
are creating another layer of bureaucracy. We have been talking 
for 30 or 40 years around here about strengthening the power of 
the CIA Director, and we have done, you, and I in the past, 
have done some things that I think have been helpful, but he 
still is in a very anomalous position.
    Senator Schumer. Will both of you and the Committee members 
have a running sort of--you will be commenting as we move 
through the process about this and that and the other, not just 
saying, these are our recommendations, we hope you do them, and 
then exiting the stage?
    Mr. Gorton. No, we do not have any intention of exiting.
    Senator Schumer. Great. That is good news.
    Chairman Hatch. We have not seen you exit at all.
    [Laughter.]
    Chairman Hatch. We think you are hanging in there.
    Senator Schumer. Do I have time for--
    Chairman Hatch. You can have one more question.
    Senator Schumer. Great, okay.
    My next question relates to the issue of nuclear security. 
One of my great worries--and I think many of us share this, but 
particularly I have been focused on this--is that somebody slip 
a nuclear weapon into our country, and God forbid, explode it. 
I do not mean a dirty bomb. I mean a real nuclear weapon. And 
there are a lot of different ways to focus on this. One of 
course is to try and buy them all up overseas. That is an 
important job. We should do everything we can. It is next to an 
impossible job. It seems to me the better way to do this is to 
be at the choke point, that is, the place where a nuclear 
weapon would be smuggled into this country.
    And I have been trying to push this Congress for years, and 
the administration now for 2 years, coming from the city from 
which I come, to do more on this. We had originally proposed--
technologically it is feasible--to develop detectors that you 
could put on every crane that loaded a container bound for the 
United States, on every toll booth of a truck that entered our 
borders, and those are really the only two ways you can bring a 
nuclear weapon here into this country, that could detect an 
amount of radiation in a real bomb. I have been pushing to have 
money for this. We had proposed 150 million, which is what the 
scientists told us they needed the first year. We got 35 
million through the Appropriations Committee, and even that, as 
best I can tell, has not been spent.
    So here my question goes to all of the panelists, or 
particularly our two Commission members and Asa Hutchinson from 
Homeland Security. Should we not be doing more on this? Are we 
doing enough on this? Why, and to Asa in particular, why are we 
not spending at least the paltry $35 million that has been 
allocated to develop these devices? Is it good enough to 
inspect only 4 percent of the containers, for instance, that 
come through our ports, for nuclear devices?
    Mr. Hutchinson. Thank you, Senator Schumer. First of all, 
we agree completely with the underlying point that we have to 
do all we can to detect nuclear devices, weapons, material that 
might be coming into the United States. We have a goal of 100 
percent radiological screening of cargo and conveyances coming 
into the country. We have deployed 151 imaging systems, 
detection systems. We have 10,000 personal radiation monitors 
that have been deployed, 284 radiation portable monitors. In 
reference to a dollar amount, the President's budget for 2005 
asks for $50 million, which is an increase from what was 
previously designated.
    And so we share the commitment, and we believe it is 
important, and we are working very hard to make sure that those 
items are procured and deployed.
    Senator Schumer. Asa, I am glad it is 15 million more. 
Every expert will tell you that over a 3-year period--because I 
have talked to all of them, and none of them are terribly 
political, these are scientists. The idea is to develop 
something that moves from a Geiger counter to sort of a 
foolproof detection device that can detect things many more 
feet away. A Geiger counter works great at three feet. It does 
not work at 80 feet. And 50 million is not close to enough. We 
have faced so many dangers, and it is not an easy job. Look at 
the range of the questions, every one of them legitimate that 
has been asked here. But this is so serious in terms of its 
devastation, and it is hardly the most expensive even to 
implement and everything else. Why only 50 million? Why are we 
not doing more? And again, this is not just an al Qaeda 
problem. This is our problem for the next generation.
    Mr. Hutchinson. That is correct. For example, whenever we 
looked at New York and concerns in that arena, we make sure 
that we have our assets flexible enough to deploy where they 
are needed to be.
    Procurement is an issue whenever it is allocated. So the 
schedule of manufacturing and the procurement of that, but we 
are moving very quickly on that. And we are enhancing our 
capacity.
    Senator Schumer. Why has the $35 million not been spent 
that was allocated not in this year's budget, but in last 
year's?
    Mr. Hutchinson. I would have to get back with you on that. 
Customs and Border Protection is spending that money as quickly 
as they can in terms of procuring these assets. I mentioned the 
151 that has been deployed, 284 radiation monitors. So there is 
a schedule that is being met day in and day out for the 
deployment of these radiation monitors.
    Senator Schumer. But we still only do 4 percent of the 
containers and a certain percentage, I do not recall, of the 
toll booths. I have seen them work. I have seen the ones that 
are there. They are just not close to enough.
    Chairman Hatch. Senator, your time is up.
    Senator Schumer. Could I just ask our Commissioners to 
comment?
    Mr. Hamilton. Well, Senator Schumer, I want you to take a 
look at our proposal on the National Intelligence Centers. All 
of the attention has been on the National Counterterrorism 
Center, but we recommend, it is the other side of the chart 
here, all of the attention has been over here, but the other 
side of it is that the administration would identify the major 
threats to the national security of the United States--
counterterrorism would be a part of it--but also the weapons of 
mass destruction.
    And you would put in one place then the authority to bring 
together all of the intelligence that we have from all of these 
various intelligence agencies, but more than intelligence, you 
would do operational planning there, and that follows the 
military example, where you pool J2 and J3 together. And so you 
would put in one place in Government the responsibility to plan 
operations to deal with weapons of mass destruction. You would 
have all of the intelligence the Government has. We support the 
expansion of the Proliferation Initiative of the President. We 
support more funding for the Cooperative Threat Reduction 
Program. This is the ultimate nightmare--
    Senator Schumer. Right.
    Mr. Hamilton. --that the terrorists gets hands on a weapons 
of mass destruction. We know that they have tried for 2 years 
to do so, and it is a terribly important program. But take a 
look at the potential of the National Intelligence Centers as 
the way to deal with this problem.
    Senator Schumer. Thank you, Mr. Chairman.
    Chairman Hatch. I have a lot of questions that I will 
submit in writing, and I hope others will as well.
    Senator Leahy would like to ask one or two more questions.
    Senator Leahy. Just because I thought that the line of 
questions that Senator DeWine was asking was a good one. I just 
want to make sure I fully understand this.
    I will direct to you, Ms. Baginski. Am I pronouncing that 
right--``Baginski'' or ``Bajinski''?
    Ms. Baginski. Baginski is correct, sir. Thank you for 
asking.
    Senator Leahy. Hard ``g.'' You said earlier the FBI can do 
multiple term searches in the Integrated Data Warehouse, the 
IDW. Now, I am not quite sure what databases are in there. Are 
case files included in that?
    Ms. Baginski. Yes, sir.
    Senator Leahy. So let us say you had a scenario like the 
well-known Phoenix memo, where the young FBI agent who blew the 
whistle on the potential hijackers taking flight lessons out in 
Phoenix, presented a memo that was basically shunted aside when 
it reached headquarters. If that was generated today by an 
agent in the field, would it be included in the IDW?
    Ms. Baginski. Yes, sir.
    Senator Leahy. Thank you.
    Ms. Baginski. I can give you a specific example from the 
demonstration they gave me on my first day here, which was to 
show this set of data that included a lot of different things, 
including case files, but not all case files, but terrorism 
information. And the activity was I could ask it a question. So 
I asked it give me information on how terrorists could do us 
harm. And with no fix in or anything else, the first thing that 
came up was the Phoenix memorandum.
    Senator Leahy. Maybe this fall Senator DeWine and I might 
have time to just go down and take a look at it.
    Ms. Baginski. We would love to have you come and look at 
what the power of putting data like that together is doing for 
our analysis.
    Senator Leahy. I know how shocked I was right after 9/11, 
when I went down to the Center. I have said this publicly and 
in fact I discussed it with President Bush at the time. He was 
equally shocked at the amount of paper, and rewriting, and 
rewriting--
    Ms. Baginski. Yes, sir. And we have more work to do, and 
just not to--
    Senator Leahy. I want to help. I mean, I am not here to 
criticize.
    Ms. Baginski. But I also want to tell you that I had the 
responsibility for information sharing. And through a policy 
board we are looking specifically at IDW and trying to add to 
the data sets that are in there. That is the point I want to 
make to you.
    Senator Leahy. Thank you. I will be down.
    Ms. Baginski. Great, sir. Thank you.
    Senator Leahy. Congressman Hamilton and Senator Gorton, you 
have recommended the National Intelligence Director, and you 
recommend that the NID be located in the Executive Office of 
the President. The question comes to my mind, would that give 
the NID sufficient independence?
    And, secondly, also on the question of independence, do you 
want this NID--to serve at the pleasure of the President or 
have a set term similar to what we do with the FBI Director?
    And, thirdly, you recommend giving the NID hiring and 
firing authority over the FBI's executive assistant director 
for intelligence, as well as budgetary control of the FBI's 
Intelligence Division. Does that assistant director then remain 
accountable to the FBI Director and the Attorney General or 
does she or whoever it might be became accountable to the NID?
    These are sort of questions that, as I walked across the 
fields of my farm in Vermont, I was thinking about maybe 
because I was not wearing a tie.
    [Laughter.]
    Mr. Hamilton. Well, they are very important questions, 
Senator. With regard to the location in the White House, the 
Executive Office, a little earlier I was talking about the 
necessity of integrating a lot of aspects of counterterrorism 
policy. Where do you do that? Well, I think it has to be done 
in or near the White House. It has to be done with the 
authority of the President.
    Now, we do not want to get hung up on boxes here. Boxes are 
not the most important thing. Authorities are the most 
important thing. If you do not put it in the White House, where 
do you put it? I do not think it would be correct to put it in 
DOD or the CIA because those departments and agencies deal with 
very specific kinds of responsibilities, and what you need is a 
very cross-cutting responsibility here. You are going to be 
giving direction to the Secretary of State, and the Secretary 
of the Treasury, and a lot of other people.
    So we recommend putting it in the White House. That is for 
you all to sort through, but if you do not put it there, where 
do you put it?
    Senator Schumer. With a term or at the pleasure of the 
President?
    Mr. Hamilton. No, he serves at the pleasure of the 
President. This position is--he is the principal adviser to the 
President, and we think the importance of a good relationship 
between the President and the National Intelligence Director is 
crucial. So we say coterminous with the President.
    Now, this question of independence is a genuine one. And we 
all know that politicalization of intelligence is a very, very 
difficult problem. Our analysis of that was that we had put 
into this system a very good means of competitive analysis, and 
we do not think that the locus or the geographical location of 
where the principal adviser to the President sits, whether it 
is in the Executive Office Building or somewhere else, maybe 
even in Vermont--is key.
    Senator Leahy. That is okay. We have got enough people.
    [Laughter.]
    Mr. Hamilton. The danger of politicalization rises because 
of the functions and the relationships not the location of the 
person. And I do not see how anyone can look at the present 
system today--you just came out in the Senate here with this 
devastating report on ``groupthink'' in intelligence community. 
What that means is a lack of competitive analysis. So I do not 
think the status quo is encouraging with respect to competitive 
analysis.
    What we do is we keep all of the independent analysis--
State will have their analysis; Treasury will have their 
analysis; Energy will have theirs; Army, Navy, Marine Corps, 
they will all have theirs--there is no change there--they have 
their independent analysis. And then we emphasize the 
importance of open-source analysis as well, which we think adds 
to the competitive analysis. Everybody wants competitive 
analysis. Nobody wants politicalization of intelligence. All of 
us recognize how difficult it is to deal with both of these 
problems.
    We believe, if you look at our system very carefully, the 
creation of the National Intelligence Director has a number of 
benefits which will strengthen competitive analysis and 
decrease the possibility of politicalization of intelligence. 
You cannot ever remove the prospect of politicalization of 
intelligence, but you can decrease it.
    Senator Leahy. You did not answer what happens with Ms. 
Baginski. Is she accountable to the FBI and the AG--
    Mr. Gorton. Basically, she is going to be accountable--
    Senator Leahy. --or is she accountable to the NID?
    Mr. Gorton. Basically, she is going to be accountable to 
both. As we said, we have affirmative, we have been very 
positive about this relationship in the FBI between 
intelligence and law enforcement and the fact that people who 
work in the FBI know something about both.
    I think we ought to emphasize just one other thing, in 
addition to what Lee has said to you. We do not say that this 
National Intelligence Director should be a Cabinet officer 
because we do think intelligence, the collection and 
communication of intelligence and operational planning should 
be separated from policy. Cabinet members are policymakers.
    Policies, with respect to what is done in the White House, 
should go through the National Security Council and should be 
those of the President. But, on the other hand, the President 
has got to trust this person who is the head of all 
intelligence, and that is the reason we make those 
recommendations. But that person should not be a policy setter.
    Chairman Hatch. Senator Schumer said he will take one 
minute, and then we are going to shut this down.
    Senator Schumer. Mr. Chairman, I have a whole lot of 
questions.
    Chairman Hatch. And you can submit them in writing.
    Senator Schumer. I am mindful of people's schedules. I will 
do them in writing.
    I am going to ask Mr. Hutchinson in writing, just from the 
Homeland Security, why this $35 million, paltry as it is, has 
not been spent yet or just to give me some details, in writing. 
He does not have to do it now.
    My final question relates, it is to both the Commission and 
Ms. Baginski. I am still concerned about all of those Saudi 
flights that came about right after September 11th. Long before 
the Commission came out, I sat down with Dick Clark, you know, 
he gave me his little synopsis as to what happened. I know you 
talked to him. And this is one place, one of the very few 
places I am not sure I completely agree with the Commission's 
recommendations.
    My question is this, not did every person who was on that 
flight get a check--they did. Somebody went and cleared them. I 
am not sure it was under the best of circumstances--I want to 
know who authorized the flight. How was it, especially when all 
planes were grounded, that this plane was able to take off, 
filled with Saudi nationals, including some people in the bin 
Laden family? It could not have been Dick Clark. I do not think 
he would have that authority. And so did you ask that question 
on the Commission? Did you get any answers? Is it not a 
relevant question to be answered?
    And then Ms. Baginski, if she knows anything.
    Mr. Hamilton. Well, we looked into it as thoroughly as we 
could, Senator Schumer. And I suspect this is one of these 
questions that will be looked at a great deal more in the 
future. We found no evidence that any flight of Saudi nationals 
departed before national airspace was opened or reopened. We 
found no evidence of the involvement of U.S. officials at the 
political level in any decisionmaking on these flights.
    What the testimony was, was that Dick Clark--this was a few 
days after--was just--
    Senator Schumer. It was on the 13th.
    Mr. Hamilton. Yes.--just besieged with hundreds and 
hundreds of questions. And the FBI called up Dick Clark, and 
there had been a contact from the Saudi Embassy to the FBI. The 
FBI called up Dick Clark and said, ``Is it okay to let these 
flights go out?''
    And Dick Clark said, ``Yes, if checks have been made'' or 
whatever. In other words, it was not something that took a huge 
amount of his time.
    And from what we know, we believe the FBI conducted a 
satisfactory screening of the Saudi nationals before their 
departure, including extensive interviews with regard to the 
bin Ladens, and there were a number of them. Now, our own 
independent check of the databases found no links between 
terrorism and the Saudis that departed. So that is where we 
came out on the investigation.
    Mr. Gorton. And I emphasize that is after the fact.
    Mr. Hamilton. That is after the fact.
    Mr. Gorton. That is what we did later during the course of 
our investigation.
    Mr. Hamilton. That is after the fact. That is where we are 
in the investigation.
    Senator Schumer. But you do not know who authorized this, 
the early one, the 13th was one of the very first flights 
allowed. It was not that everybody was flying then again. You 
had to get specific authorization. And then there were others 
later. Like there was one the 19th, after everybody was flying 
again.
    Mr. Hamilton. Is that the one from Florida that came up you 
are talking about?
    Senator Schumer. Yes.
    Mr. Gorton. Even that early Tampa flight to Lexington was 
after the Tampa airport was opened to general aviation.
    Senator Schumer. Did they not have to get approval? I 
thought, in those early days, there had to--in other words, all 
planes were flying then?
    Mr. Hamilton. The commercial airplanes, it took a little 
while longer than some of the general aviation to get cranked 
up to fly.
    Senator Schumer. And any general aviation was allowed on 
the 13th?
    Senator Gorton. They did not take off until the Tampa 
airport was opened.
    Chairman Hatch. That has got to be it.
    I want to thank each of you for being here. I thought this 
was one of the best hearings that I have observed in the 
Congress, and it is because of the four of you and those who 
back you up. I think you have been terrific. I think you have 
helped us to understand a lot of things we need to understand. 
We have only scratched the surface in some ways, so we will 
keep the record open for a week for written questions, and 
hopefully you can help us even further there, so that we can do 
our part of this and of course participate in all of the other 
parts of it as well, which this Committee does very well.
    So we want to thank each one of you. I am sorry it has 
taken us so long, but it has been a very, very worthwhile 
hearing, and we are grateful to you.
    With that, we will recess until further notice.
    [Whereupon, the 12:18 p.m., the Committee was concluded.]
    [Questions and answers and submissions for the record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
